FOLLOW-UP AUDIT OF THE
 DEPARTMENT OF JUSTICE
COUNTERTERRORISM FUND
     U.S. Department of Justice
   Office of the Inspector General
            Audit Division

        Audit Report 03-33
         September 2003
    FOLLOW-UP AUDIT OF THE DEPARTMENT OF JUSTICE
              COUNTERTERRORISM FUND

                               EXECUTIVE SUMMARY

      After the September 11, 2001 terrorist attacks, the Attorney General
declared that fighting terrorism was the Department of Justice’s
(Department’s) top and overriding priority. One of the resources available to
address terrorist activity is the Department Counterterrorism Fund (the
Fund), which was created by Congress in July 1995 in the wake of the
bombing of the Alfred P. Murrah Federal Building in Oklahoma City,
Oklahoma.

Fund History

      The Fund was established to assist Department components with the
unanticipated costs of responding to and preventing terrorism. Since its
inception in 1995, Congress has appropriated over $360 million to the Fund,
of which about $290 million has been obligated for reimbursement of certain
counterterrorism expenses of agencies such as the Federal Bureau of
Investigation (FBI), the Executive Office for United States Attorneys
(EOUSA), and the United States Marshals Service (USMS).

                        COUNTERTERRORISM FUND USERS1
                                                        USMS
                                                         6%
                                                                NON-DOJ
                                                                 USERS
                                                                  11%

                                                                     OTHER
                                                                     USERS
                                                                      2%

                                                                      EOUSA
                                                                       5%




                                FBI
                                76%



                                   Source: JMD Budget Staff



1
  This chart does not include $151 million provided to the Office of Justice Programs (OJP) for
grants to state and local agencies. These funds were reviewed in a previous audit conducted by the
Office of the Inspector General (OIG), entitled Office of Justice Programs State and Local Domestic
Preparedness Grant Programs, report number 02-15, issued March 2002.
      Legislative and Department guidelines stipulate that only extraordinary
expenses are to be reimbursed from the Fund. In other words, the Fund
should only be used to pay for expenses that are beyond what the agency’s
general appropriation could reasonably be expected to fund. At times,
however, Congress has earmarked portions of the Fund appropriations for
specific initiatives such as a 5-year counterterrorism plan and the creation of
an alternate government facility for the continuation of Department
operations in the event of an emergency.

        According to the initial legislation, the Fund was established to provide
reimbursement to Department components only. Since 1996, however,
Congress has allowed over $167 million to be passed through the FBI, the
Justice Management Division (JMD), and OJP to support counterterrorism
initiatives of non-DOJ agencies, often when these activities are performed in
conjunction with Department initiatives.2 Aside from the fact that the Fund
has been used to reimburse agencies outside of the Department, the intent
of the Fund has not changed since its inception.

Administration of the Fund

       JMD, the administrative arm of the Department, administers the Fund
for the Attorney General. The JMD Budget Staff handles the Fund’s day-to-
day operations, while the JMD Finance Staff executes all financial
transactions between Department agencies. Components seeking resources
from the Fund submit a request to the JMD Budget Staff detailing the
counterterrorism initiative (e.g., the investigation of the U.S. embassy
bombings in Africa) and the types of expenditures for which it is requesting
reimbursement (e.g., travel and overtime expenses). The Budget Staff
reviews the request and makes a recommendation to the Attorney General.
Ultimately, each request must be approved by the Department, the Office of
Management and Budget, and Congress. Once an initiative has been
approved, JMD can enter into reimbursement agreements (RAs) with the
requesting agencies; these agencies then bill for actual expenditures. The
RA is a binding document, which includes the Fund mission, the approved
counterterrorism initiative, the types of expenditures eligible for
reimbursement, and the approved amount of funding. The RA requires the
receiving component to certify that the reimbursed expenditures are
allowable and fully supported. As the Fund administrator, the JMD Budget
Staff is ultimately responsible for ensuring that the Fund is used
appropriately and that the expenditures are adequately supported.



2
  Several different non-DOJ agencies have received reimbursement from the Fund, including
the state of Georgia; the city and county of Denver, Colorado; the Department of the Interior;
and the Department of the Treasury.
                                              ii
Audit History

       In 1998, the OIG conducted an audit of the Fund covering fiscal years
(FYs) 1995 through 1997. We found that JMD needed to take a more
proactive approach to its administration of the Fund. Specifically, JMD
needed to strengthen its controls over the distribution and use of Fund
monies, particularly those passed through to non-DOJ agencies. We
identified dollar-related deficiencies totaling over $4 million, or almost
17 percent of the total funds tested, resulting from expenditures that were
either improper or not adequately supported at the Drug Enforcement
Administration, EOUSA, the FBI, the USMS, and other non-DOJ agencies.
Although primary responsibility for ensuring the appropriate use of Fund
monies rests with the components incurring the costs, JMD was still
accountable for the Fund and these deficiencies pointed to weaknesses in
JMD’s oversight. The report concluded that increased oversight by JMD
would help ensure that Fund resources are used properly and would increase
the availability of additional resources to respond rapidly and effectively to
unanticipated terrorist incidents.

       We initiated this follow-up audit because of the significance of the
deficiencies found during the prior audit as well as the considerable amount
of recent appropriations to the Fund.3 In our current audit, we reviewed
Fund expenditures for FYs 1998 through 2002 at the Criminal Division,
EOUSA, the FBI, the Security and Emergency Planning Staff (SEPS), the
USMS, and other non-DOJ agencies.4 These expenditures were made in
support of a wide range of counterterrorism activities, including the
investigations and prosecutions related to the federal building bombing in
Oklahoma, the U.S. embassy bombings in Africa, and the Freemen
antigovernment extremists in Montana; responding to the September 11,
2001, terrorist attacks; and security preparations for the 2002 Winter
Olympics in Utah.

Results in Brief

      We found that some improvements had been made in JMD’s
administration of the Fund. Specifically, during the initial audit, we identified
several inactive reimbursement agreements (RAs) that needed to be closed
so that the unused funds could be made available in the event of an
emergency. JMD took appropriate action to close these RAs, and in our
current audit, we found that JMD continued to actively monitor the status of
RAs. In addition, our testing of expenditures for reasonableness,

3
  Between FYs 1998 and 2003, about $279.5 million was appropriated to the Fund. In contrast,
during our initial audit covering FYs 1995 through 1997, about $80.6 million was appropriated.
4
    Our audit objectives, scope, and methodology are contained in Appendix I.
                                                    iii
appropriateness, compliance with Fund legislation, and adequacy of
supporting documentation revealed that the overall error rate improved from
about 17 percent in the prior audit to 8 percent in our follow-up review.5

       In response to our prior audit, JMD stated that it would review
component billings, including back-up documentation, prior to processing the
billings. However, our current audit findings indicate that JMD has not fully
implemented an effective review process and, as a result, Fund users were
inappropriately reimbursed for some expenditures, as detailed in the
following table.

                             REIMBURSEMENT
                                AMOUNTS6
          AGENCY                                           AMOUNT         QUESTIONED
                                                          REVIEWED          COSTS7
                           FUNDED           BILLED

       CRIMINAL
                            $1,000,000         $944,351        $196,141                $0
       DIVISION
       EOUSA                  3,845,039       2,763,817       1,043,611            17,491

       FBI                  82,618,139       75,892,377      32,607,795          1,319,691

       SEPS8                   510,000          510,000         656,251            19,504

       USMS                   6,026,138       2,640,368       1,503,420          1,284,453

       NON-DOJ
                              3,966,550       2,744,478       2,324,541           430,132
       USERS9

          TOTALS           $97,965,866      $85,495,391     $38,331,759         $3,071,271

       Source: JMD Budget Staff and OIG analysis


5
  The error rate was calculated using the total dollar value tested and the dollar value of
the exceptions identified.
6
  Some agencies have not billed the Fund for the entire amount made available by the RAs.
The billed amounts shown reflect funds received as of September 10, 2002, the end date of
our review period.
7
  The Inspector General Act of 1988 contains our reporting requirements for questioned
costs and funds to better use. See Appendix II for the definitions of these terms.
8
   SEPS was unable to distinguish the reimbursed transactions from its total expenditures for
its counterterrorism initiative. Therefore, we selected a sample of transactions to test based
upon the entire universe of transactions expended on the initiative, which totaled $1,158,134.
9
  Non-DOJ agencies receiving Fund reimbursements during this audit period included:
1) the Georgia Department of Corrections; 2) the Denver, Colorado Police Department;
3) the U.S. Department of Agriculture (USDA) Forest Service; and 4) the city of Ogden,
Utah.
                                               iv
     In total, we tested more than $38.3 million in expenditures, including
about $36 million expended directly by Department components and over
$2.3 million passed through to non-DOJ users.10 Our testing revealed, in the
aggregate, over $3 million in questioned costs from Fund monies expended
by Department components and non-DOJ users.

Department Component Expenditures

      At the Department components, we identified about $2.6 million in
dollar-related deficiencies resulting from expenditures that were either
improper or not adequately supported. Specifically:

       •   The USMS did not adequately manage its reimbursements from the
           Fund. The USMS improperly used or could not support almost
           $1.3 million of the $1.5 million we reviewed. This represented an
           error rate of approximately 85 percent. These questioned costs
           included approximately $560,000 for which the agency could not
           provide supporting documentation. The remaining $720,000 was
           comprised of unallowable costs, including expenses that were not
           related to the approved counterterrorism initiative or costs that
           were denied. For example, the USMS billed the Fund for overtime,
           equipment, and supplies that JMD had explicitly denied for
           reimbursement when the RA was signed.

       •   Our testing at the FBI resulted in over $1.3 million in questioned
           costs, or 4 percent of the $32.6 million reviewed. These exceptions
           included almost $530,000 in unsupported transactions. In addition,
           we identified about $791,000 in expenditures that were not
           approved, were not clearly connected to the approved initiative, or
           were erroneously billed. The FBI has shown progress since the
           prior audit when its error rate was 12 percent.

       •   We found about $19,500 in deficiencies, or 3 percent of the dollars
           tested, related to expenses incurred by SEPS. In FY 1999,
           Congress earmarked $1 million in Fund monies to be used to create
           an alternate location from which Department officials could conduct
           operations in the event of an emergency. Our review of related
           transactions disclosed $17,339 in unsupported expenses and an
           accounting error of $2,165.



10
   We also reviewed about $8 million in FBI overtime costs related to the attacks on the World
Trade Center and the Pentagon. However, these costs were calculated as an estimate based
on historical data for the agency. These expenses are not included in our total amount tested
due to differences in our methodology.
                                              v
        •   At EOUSA, we identified over $17,000 in questioned costs, including
            expenses prior to the effective date of the RA and inappropriate
            authorization of travel vouchers. This represented an error rate of
            less than 2 percent. Compared to its error rate of 15 percent in our
            prior audit, EOUSA has made significant improvements in the
            management of its expenditures.

Non-DOJ Users

       Funds disseminated to non-DOJ agencies continued to be at risk due to
the lack of federal oversight, as evidenced by the $430,000 in funds that
were either improperly used or unsupported. These findings amounted to
19 percent of the pass-through expenditures reviewed; this is comparable to
the 20 percent error rate we identified in our prior audit and indicates that
very little improvement has been achieved. Details of the end-users,
amounts reimbursed, and our findings are shown in the following table.

                          PASS-           REIMBURSEMENT
                                             AMOUNTS                  AMOUNT        QUESTIONED
      END-USER          THROUGH
                                                                     REVIEWED         COSTS
                         AGENCY          FUNDED         BILLED
     City of Ogden,
                            JMD          $3,000,000     $1,993,863     $2,082,331          $187,922
     Utah11
     Denver Police
                             FBI            108,290       108,290         108,290           108,290
     Department
     Georgia
     Department of           FBI            652,560       525,772          17,367             17,367
     Corrections
     USDA Forest
                             FBI            205,700       116,553         116,553           116,553
     Service
                 TOTALS                  $3,966,550     $2,744,478     $2,324,541          $430,132
      Source: FBI Budget Execution Unit, JMD Budget and Finance Staffs, and OIG analysis

     In general, the funds passed through to non-DOJ users were not
adequately monitored by the Department components acting as pass-
through agencies. We found that:

        •      JMD allowed payments for expenses expressly prohibited in the
               funding agreement with the city of Ogden, Utah. Although the
               agreement clearly stated that funds were to be provided for only
               direct costs related to communications enhancements in
               preparation for the 2002 Winter Olympic Games, indirect costs
               were also reimbursed.
11
   We reviewed approximately $90,000 more than the amount reimbursed because the city of Ogden
reduced one of its billings to account for an expenditure that it thought had been billed to the Fund
twice. However, based upon our testing, no expenditures were charged to the Fund more than once.
                                                   vi
      •     In each of its arrangements, the FBI failed to obtain or maintain
            documentation to support the overall amounts billed by the end-
            users. Therefore, we could not perform testing on many of the
            transactions because neither the end-user nor the pass-through
            agency was able to provide adequate records.

      •     The Georgia Department of Corrections, which assisted the FBI
            in its pursuit of a terrorism suspect, received over $17,000 in
            reimbursement for equipment, telephone charges, and other
            costs even though the agreement stipulated that only travel and
            overtime were to be reimbursed.

JMD Oversight

      Although our current audit has revealed that the rate of unallowable and
unsupported costs for Department components and non-DOJ users has
decreased, the dollar value of these exceptions, over $3 million, continues to
be significant. Many of the exceptions we identified could have been avoided
if JMD had strengthened its controls over the administration of the Fund,
particularly during its review of billings. Our review revealed that components
were billing and receiving funds for expenditures that: 1) were not approved
costs of the Fund, 2) were explicitly denied, or 3) lacked supporting
documentation for costs incurred. Further, we found that significant
weaknesses persisted or worsened at the USMS and that funds provided to
non-DOJ users continued to be at risk of misuse.

       Since JMD is ultimately responsible for the integrity of the Fund, it must
implement and utilize controls that will preserve that integrity. Due to the large
scale of recent terrorist attacks and the immediate and costly response that
follows, it is critical that the Fund be adequately monitored to ensure that
sufficient monies are available to respond to unexpected terrorist incidents. If
controls are enhanced, additional resources should be available when
necessary.

       Based upon our review, we offer 13 recommendations to improve JMD’s
administration of the Fund. Specifically, we recommend that JMD work with the
individual Fund recipients to remedy the questioned costs we identified and
improve controls where necessary. We also recommend that JMD increase its
oversight of the Department components, particularly the USMS, including
periodically monitoring actual expenditures. For the instances in which funds
are to be passed through a Department component to an external agency, we
recommend that JMD establish a framework for this process that provides
guidance for the pass-through agencies.



                                       vii
     FOLLOW-UP AUDIT OF THE DEPARTMENT OF JUSTICE
               COUNTERTERRORISM FUND

                            TABLE OF CONTENTS
                                                                                     Page

INTRODUCTION ........................................................................ 1

      Legislative History .............................................................   1
      Fund Guidelines.................................................................    3
      Administration of the Fund ..................................................       4
      Prior Audit Results .............................................................   6
      Follow-up Audit .................................................................   6

FINDINGS AND RECOMMENDATIONS .......................................... 10

1.    Reimbursements to Department Components ....................... 10

             Fund Expenditures .................................................... 11
             Overall Assessment of Department Components ............ 23
             Recommendations..................................................... 24

2.    Reimbursements to Non-DOJ Components ........................... 26

             Non-DOJ Component Reimbursement Process ...............                      26
             Prior Audit Results.....................................................     27
             Current Non-DOJ Users & Initiatives ............................             27
             Funding Agreements..................................................         29
             Conclusion ...............................................................   33
             Recommendations.....................................................         34

3.    JMD Oversight of the Fund ................................................. 35

             Prior Report..............................................................   35
             Improvements ..........................................................      36
             Continuing Weaknesses .............................................          37
             Conclusion ...............................................................   40
             Recommendations.....................................................         41

STATEMENT ON MANAGEMENT CONTROLS................................... 43
APPENDIX   I - AUDIT OBJECTIVES, SCOPE, AND
               METHODOLOGY ................................................. 44

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .......... 50

APPENDIX III - SAMPLE OF REIMBURSEMENT AGREEMENT ........... 51

APPENDIX IV - JUSTICE MANAGEMENT DIVISION’S
              RESPONSE TO THE DRAFT REPORT ...................... 52

APPENDIX V - OFFICE OF THE INSPECTOR GENERAL,
             AUDIT DIVISION ANALYSIS AND SUMMARY OF
             ACTIONS NECESSARY TO CLOSE THE REPORT....... 57
                              INTRODUCTION

      Following the events of September 11, 2001, the U.S. Government
intensified its efforts to fight terrorism using many available tools, including
diplomacy, intelligence gathering, military operations, and law enforcement.
The Department of Justice (Department) plays a critical role in the
counterterrorism mission. Specifically, the Department’s counterterrorism
mission is to: 1) prevent terrorism before it occurs; and 2) mount an
immediate and overwhelming investigative response, should an act of
terrorism occur. In order to accomplish this mission, the Attorney General
announced that the Department would devote resources to disrupt, weaken,
and eliminate terrorist networks; to prevent or thwart terrorist operations;
and to bring to justice the perpetrators of terrorist attacks. The
Department’s Counterterrorism Fund (the Fund) has been one of the
resources made available and utilized in pursuance of this counterterrorism
mission.

Legislative History

     Congress established the Fund in July 1995 in response to the
bombing of the Alfred P. Murrah Federal Building in Oklahoma City,
Oklahoma, and placed the Fund in the custody of the Attorney General. The
purpose of the Fund is stated in the 1995 Emergency Supplemental Act:12

       [The] Counterterrorism Fund is hereby established . . . to
       reimburse any Department of Justice organization for the costs
       incurred in reestablishing the operational capability of an office
       or facility which has been damaged or destroyed as a result of
       the bombing of the . . . federal building in Oklahoma City or any
       domestic or international terrorism event . . . funds . . . may
       also be used to reimburse the appropriation account of any
       Department of Justice agency engaged in, or providing support
       to, countering, investigating or prosecuting domestic or
       international terrorism, including payment of rewards . . . and to
       conduct a terrorism threat assessment of Federal agencies and
       their facilities. . . .

      Congress initially provided $34.22 million for the Fund and has
continued to appropriate money each year to the Fund. The following table


12
   Public Law 104-019, Emergency Supplemental Appropriations for Additional Disaster
Assistance, for Anti-Terrorism Initiatives, for Assistance in the Recovery from the Tragedy
that occurred at Oklahoma City, and Rescissions Act, 1995.
provides the appropriations made to the Fund for fiscal years (FYs) 1995
through 2003.

                   COUNTERTERRORISM FUND APPROPRIATIONS

                                                                       FUNDS
             YEAR            LEGISLATIVE REFERENCE                   PROVIDED13

              1995                  Public Law 104-019                   $ 34,220,000

              1996                  Public Law 104-134                    16,898,000

              1997                  Public Law 104-208                    29,450,000

              1998                  Public Law 105-119                    52,700,000

              1999                  Public Law 105-277                   145,000,000

              2000                  Public Law 106-113                    10,000,000

              2001                  Public Law 106-553                      5,000,000

              2001                  Public Law 107-038                    40,800,000

              2002                  Public Law 107-077                      4,989,000

              2003                  Public Law 108-007                        993,000

              2003                  Public Law 108-011                    20,000,000

                                          TOTAL                         $360,050,000


      According to the initial legislation, the Fund was established to provide
reimbursement to Department components only. Since 1996, however,
Congress has allowed over $167 million to be passed through the Federal
Bureau of Investigation (FBI), the Justice Management Division (JMD), and
the Office of Justice Programs (OJP) to other federal, state, and local users
outside the Department.




13
   Generally, the funds were provided under no-year appropriations; therefore, funds
appropriated in a given fiscal year are not restricted to spending in that same fiscal year.
However, the $20 million provided under Public Law 108-011 is available only through
December 31, 2003.

                                               2
Fund Guidelines

      The congressional committee reports related to Public Law 104-019
established the following legislative guidelines on the type of expenditures
reimbursable from the Fund:

       The conference agreement allows for the payment of expenses
       of an extraordinary nature of Department of Justice agencies
       engaged in, or providing support to, countering, investigating, or
       prosecuting domestic or international terrorism. [Emphasis
       added.]

      "Extraordinary" is interpreted by JMD to refer to the nature of the
expenses rather than to the act of terrorism that caused the expenses. Prior
to April 1, 2000, JMD had not issued formal policies or comprehensive
guidelines concerning the proper uses of the Fund. Instead, JMD used the
guidelines incorporated in the language of the initiating legislation
documents that stated expenditures should be extraordinary in nature and
related to the following purposes:

   •   reestablishing the operational capability of a facility damaged by a
       terrorism event;

   •   providing support to countering, investigating, or prosecuting
       terrorism, including the payment of rewards; and

   •   conducting a terrorism threat assessment of federal agencies and their
       facilities.

       JMD provided additional guidance to the components regarding the use
of the Fund in a memorandum dated April 1, 2000. The memorandum
asserted that the Attorney General would use Fund monies only for
extraordinary counterterrorism-related costs and included regular salaries
for personnel who would normally be on duty as an example of costs that
would not be appropriate. In addition, the memorandum reiterated that the
Senate Appropriations Committee expected the “extraordinary costs to be
incurred in response to an unexpected terrorist threat or act and not the cost
incurred with day-to-day counterterrorism operations.” In other words, the
Fund should only be used to pay for expenses that are beyond what the
agency’s general appropriation could reasonably be expected to fund.
Appropriate expenditures that have been reimbursed from the Fund include
overtime, travel, and equipment costs pertaining to national events
(e.g., the Olympics and political conventions) and the investigations and
prosecutions related to large-scale acts of terrorism.

                                       3
Administration of the Fund

       As the administrative arm of the Department, JMD manages the Fund
for the Attorney General. As the Fund administrator, JMD's primary
responsibility is to ensure that the Fund is used in a manner consistent with
its intended purpose and not merely to replace the components' general
appropriations. The JMD Budget Staff handles the Fund’s day-to-day
operations, including requesting appropriations from Congress, reviewing
component requests for funding, submitting reimbursement
recommendations to the Attorney General, and executing agreements with
agencies for reimbursement from the Fund.

       Federal regulations require the head of each agency to establish and
maintain systems of accounting and internal controls for the safeguarding of
assets and the assurance of reliable accounting records.14 The head of JMD
is the Fund administrator and, therefore, is ultimately accountable for
ensuring that Fund expenditures are reasonable, appropriate, adequately
supported, and compliant with legislation.

      Appropriation Requests — JMD compiles the Department’s annual
request for appropriations to the Fund. When compiling the request, JMD
takes into account the needs of the components and the current available
balance.15 The request is then submitted to Congress, which has ultimate
control over the amount appropriated to the Fund.

      Review Process — After appropriations have been made, the JMD
Budget Staff can disseminate monies from the Fund to Department
components. Prior to April 1, 2000, the Budget Staff informed the
components on an annual basis that money was available for the
reimbursement of certain counterterrorism expenses, and components would
then submit requests for evaluation. However, the Budget Staff no longer
annually solicits component requests for resources from the Fund. Instead,
the balance remains available at all times. If a terrorist incident occurs, the
Budget Staff immediately issues special instructions to address any
extraordinary costs requiring the use of the Fund, and the components
submit requests accordingly.

      When component requests are submitted to JMD, budget analysts
review them to determine if the expenditures would be an appropriate use of

14
  31 USC 3512, Executive Agency Accounting and Other Financial Management Reports
and Plans.
15
     As of June 30, 2003, the available balance of the Fund was approximately $70.3 million.

                                              4
the Fund. The JMD Budget Staff reviews Department components’ requests
in detail for reasonableness, appropriateness, and applicability. These
assessments also include a review of each agency’s general appropriation
funds to ensure that monies requested are for extraordinary expenses and
not for expenditures already planned. Further, budget analysts work with
agency representatives to resolve any concerns and obtain necessary
additional information to complete each assessment. For FYs 1998 through
2002, JMD approved components' requests of about $100 million while
denying requests totaling almost $25 million.

       Approval Process — After completing its assessments of the
components’ requests, JMD issues a memorandum to the Attorney General
detailing the Budget Staff’s assessments and recommendations for the use
of Fund monies in support of various counterterrorism initiatives. If
approved by the Attorney General, the recommendation is forwarded to the
Office of Management and Budget (OMB) for approval. If OMB approves the
planned reimbursements, the recommendation is sent to the Appropriations
Committees in both houses of Congress, which also must agree before any
recipient can receive Fund monies.

      Congress has earmarked some Fund monies for specific initiatives.16
During these instances, the usual approval process is bypassed. The
recipient does not submit a funding request to JMD, and the Budget Staff
does not conduct an assessment of the request.

      Execution of Reimbursement Agreements — After Congress approves
funding for certain initiatives, JMD enters into reimbursement agreements
(RAs) with the requesting agencies.17 Generally, all funds are allotted to the
components through an RA, which is a binding document between JMD and
the recipient. The RA includes the Fund mission and the purpose of the
agreement, including the counterterrorism initiative and the amount of
funding to support that initiative.

      In order to receive reimbursement from the Fund, components submit
quarterly billings of their actual expenditures to the JMD Budget Staff. The
Budget Staff is responsible for reviewing the billings and processing them for
payment by the JMD Finance Staff.


16
  “Earmarking” Fund monies signifies that Congress has designated a certain amount of
money from the Fund to a particular recipient for a specific initiative. For example,
Congress earmarked $1 million during FY 1998 to the Department for its development and
implementation of a 5-year inter-departmental counterterrorism and technology crime plan.
17
     See Appendix III for an example of an RA.

                                                 5
Prior Audit Results

       In 1998, the OIG conducted an audit of the Fund that included a
detailed review of funding provided to Department components during
FYs 1995 through 1997.18 We reviewed funding used to support activities
related to the Oklahoma City bombing; the 1996 Summer Olympics in
Atlanta, Georgia; the 1996 political conventions; and combating and
investigating Middle Eastern terrorism activities in the United States.19 Our
audit found that although JMD maintained strong controls during the RA
review and approval process, JMD needed to take a more proactive approach
to its distribution of Fund monies, especially those passed through to non-
DOJ users.20 We also found that non-DOJ users were not always required to
submit supporting documentation for their expenditures prior to
reimbursement, nor were they always made aware of the appropriate use of
Fund monies.

      In addition, JMD did not have a system to monitor Fund recipients to
ensure that actual expenditures were allowable, supported, and used in
accordance with authorized purposes. As a result, components were
reimbursed for expenditures that were not allowed by the RA, were not
related to counterterrorism, were not extraordinary in nature, or were not
adequately supported. Further, some funds that were obligated to
components were unused for extended periods of time. As a result of the
weak controls, we identified over $4 million in dollar-related deficiencies out
of the approximate $26 million reviewed, and more than $3 million was
returned to the Fund.

Follow-up Audit

      We initiated this follow-up audit because of the significant deficiencies
found during the prior audit, the considerable amount of funds appropriated
subsequent to that audit, and the increased emphasis the Department has
placed on countering terrorism. Our audit objectives were to determine if:
1) Fund expenditures were authorized, supported, and used in accordance


18
   Office of the Inspector General (OIG) report number 99-28, entitled The Department of
Justice Counterterrorism Fund, issued September 1999.
19
   Six Department components received funding during FYs 1995 through 1997 and were
included in our prior audit, namely the Drug Enforcement Administration (DEA), the Executive
Office for United States Attorneys (EOUSA), the FBI, the former Immigration and
Naturalization Service (INS), JMD, and the United States Marshals Service (USMS).
20
   Examples of non-DOJ users included the state of Georgia; the city and county of Denver,
Colorado; the Department of the Interior; and the Department of the Treasury.

                                            6
with the intent of the law; and 2) JMD has taken appropriate efforts to close
RAs in an expeditious manner.

       We reviewed funding provided to components during FYs 1998 through
2002. During this period, the Fund has been used for a wide range of
activities, including the investigation and prosecution of bombing incidents
(e.g., the Oklahoma City bombing and the U.S. embassy bombings in
Africa), preparations to combat terrorism (e.g., the development and
implementation of a 5-year inter-departmental counterterrorism and
technology crime plan, and security enhancements for the 2002 Winter
Olympics in Utah), and responding to terrorist attacks (e.g., the terrorist
attacks of September 11, 2001). From FY 1998 through 2002, a total of
over $258 million was made available to the components, as shown in the
following table.




                                      7
                      SUMMARY OF REIMBURSEMENT AGREEMENTS
                          FISCAL YEARS 1998 THROUGH 2002


       COMPONENT            FY 1998        FY 1999        FY 2000        FY 2001       FY 2002     TOTALS

BOP21                              $0                $0          $0      $9,200,000         $0      $9,200,000

CRIMINAL DIVISION            1,000,000                0             0              0         0       1,000,000

EOUSA                        2,950,883                0     894,156                0         0       3,845,039

FBI (DIRECT)                30,632,566      15,085,573              0    36,900,000          0      82,618,139

FBI (PASS-THROUGH)            966,550                 0             0              0         0         966,550

OGDEN, UTAH22                3,000,000                0             0              0         0       3,000,000

OJP (PASS-THROUGH)23        16,000,000     135,000,000              0              0         0     151,000,000

SEPS (JMD)24                          0               0     510,000                0         0         510,000

USMS25                       2,126,138                0      38,560       3,900,000          0       6,064,698


         TOTALS            $56,676,137    $150,085,573    $1,442,716    $50,000,000         $0   $258,204,42626

Source: JMD Budget Staff


  21
     In FY 2001, the Federal Bureau of Prisons (BOP) received an RA in the amount of
  $9.2 million for overtime costs and equipment and supply purchases in response to the
  terrorist attacks of September 11, 2001. The BOP did not expend any of this funding and
  JMD deobligated the money. Thus, this RA was excluded from our detailed review.
  22
     In 1998, JMD entered into a grant agreement with the city of Ogden, Utah, instead of a
  reimbursement agreement. This was the only occurrence in which an RA was not used.
  23
     The funds provided under this RA were reviewed as part of a previous audit conducted by
  the OIG, entitled Office of Justice Programs State and Local Domestic Preparedness Grant
  Programs, report number 02-15, issued March 2002. Thus, we excluded this funding from
  our follow-up audit.
  24
       The Security and Emergency Planning Staff (SEPS) is an office within JMD.
  25
     In FY 2000, the USMS received an RA in the amount of $38,560. The USMS did not
  expend any of this funding and JMD deobligated the money. Thus, this RA was excluded
  from our detailed review.
  26
     This amount does not agree with the $100 million recommended by JMD that is reported
  on page 5. The difference is mainly due to Congressional earmarking that increased the
  funding provided to the components. Additionally, OMB and Congress made revisions to
  JMD’s recommendations that decreased the funding for some RAs.

                                                     8
       To review JMD’s administration of the Fund and the Fund recipients’
management of the reimbursed monies, we requested detailed transaction
listings for Fund expenditures related to each of the RAs. Using the listings
received, we selected a judgmental sample of transactions for testing to
ensure that the items were reasonable, appropriate, adequately supported,
and compliant with Fund legislation; details of our sampling methodology are
presented in Appendix I.

      From the sample of transactions selected, we conducted a thorough
review of Fund activities and expenditures incurred by Department
components. The results of this detailed review are presented in Finding 1.
We also conducted an examination of Fund monies that were passed through
Department components and used by non-DOJ agencies. The results of this
review are contained in Finding 2. Finally, our analysis of JMD’s monitoring
and oversight of Fund activities is presented in Finding 3.




                                     9
                   FINDINGS AND RECOMMENDATIONS

1.     Reimbursements to Department Components

       Our review of over $36 million in component expenditures
       disclosed $2.6 million in questioned costs, which resulted from
       expenditures that were either improper or were not adequately
       supported. These deficiencies represented a combined
       component error rate of 7 percent. Although this reflects that
       improvements have been made since our last audit, during
       which we identified a 16 percent error rate for Department
       component expenditures, our findings show that Department
       components need to improve further their management of Fund
       monies.

       For FYs 1998 through 2002, JMD entered into RAs totaling about
$94 million with five Department components – the Criminal Division,
EOUSA, FBI, SEPS, and USMS. As of June 30, 2003, the components had
billed the Fund for about $91.4 million against these RAs. These
components spent the funds in support of various initiatives, primarily in
support of the Oklahoma City Bombing Trial of Terry Nichols; the
investigation of the U.S. embassy bombings in Africa; the 1998 trial of the
Freemen antigovernment extremists in Montana; the 1998 manhunt of
fugitive Eric Rudolph;27 and the response to the September 11, 2001,
terrorist attacks. In addition, funding was expended on a 5-year inter-
departmental counterterrorism and technology crime plan, arrangements to
ensure the continuation of Department operations in the event of an
emergency, counterterrorism and technology crime research and
development, and bomb technician training.

      Fund recipients are responsible for ensuring that expenditures are
allowable, supported, and used in accordance with authorized purposes.
Specifically, the RAs state:

       The Chief Financial Officer [CFO] for your organization must certify
       that all amounts billed under this agreement have been expended only
       for the specified purposes & will retain all supporting documents
       associated with billings under this agreement.

    This was reiterated in a memorandum JMD sent to Department
components on April 1, 2000. JMD officials informed the components that the
27
   Rudolph, who was on the FBI’s Ten Most Wanted Fugitives list, was charged in relation to various
bombing incidents in the Southeastern section of the United States. He was arrested in May 2003 in
Murphy, North Carolina.

                                                10
CFO of each agency must ensure that the billings submitted for
reimbursement include only approved expenses pertaining to the
counterterrorism initiative stated in the RA and in congressional notifications.
Additionally, the memorandum stated that each CFO should maintain
appropriate supporting documentation for the agency’s Fund expenditures.

Fund Expenditures

      We tested a sample of the monies distributed from the Fund to the five
Department components noted previously. In general, the types of
expenditures made by the components for FYs 1998 through 2002 were
overtime, travel, equipment, supplies, utilities, and rent payments. We
examined the expenditures for reasonableness, appropriateness, compliance
with Fund legislation, and adequacy of supporting documentation. We
reviewed over $36 million, or 44 percent of the amount billed.

       We found that the components did not have adequate documentation
for transactions totaling $1,110,606. Further, we identified $1,530,533 in
unallowable expenditures. Thus, we questioned over $2.6 million, or
7 percent of the expenditures reviewed, as shown in the following table.




                                      11
                             RESULTS OF EXPENDITURE TESTING28
                 REIMBURSEMENT                                                  QUESTIONED COSTS30
                                                            TOTAL
                    AMOUNTS29
AGENCY                                       AMOUNT        AMOUNT
                                            REVIEWED      QUESTIONE
               FUNDED         BILLED                                        UNALLOWE         UNSUPPORTE
                                                              D
                                                                                D                 D

CRIMINAL
                $1,000,000     $944,351        $196,141               $0               $0                  $0
DIVISION
EOUSA            3,845,039     2,763,817      1,043,611           17,491           14,475                3,016
FBI             82,618,139    75,892,377     32,607,795        1,319,691          791,300              528,391
SEPS31             510,000       510,000        656,251           19,504             2,165              17,339
USMS             6,026,138     2,640,368      1,503,420        1,284,453          722,593              561,860

 TOTALS        $93,999,316   $82,750,913    $36,007,218       $2,641,139        $1,530,533         $1,110,606
Source: JMD Budget Staff and OIG analysis
        Federal Bureau of Investigation — During the prior audit, the FBI was
  the largest recipient of Fund monies. The FBI once again received the
  majority of the funds between FYs 1998 and 2002. During this period, the
  FBI entered into nine RAs amounting to $82,618,139.32 During our review
  timeframe, the FBI was reimbursed $75,892,377 for expenditures related to
  counterterrorism initiatives.

        The following table identifies each RA with the year it was issued and
  the approved uses for the Fund monies. In addition, the table provides the
  amount the FBI billed against each RA, the dollar amount that we tested, the
  questioned costs we identified, and the breakdown of questioned costs as
  unallowed or unsupported. Of $32,607,795 in transactions selected for
  detailed testing at the FBI, which represented 42 percent33 of the universe,
  we questioned a total of $1,319,691 (4 percent) as unsupported or
  unallowable.

  28
       These figures do not include our results for non-DOJ users, which are presented in Finding 2.
  29
    Some agencies have not billed the Fund for the entire amount made available by the RAs. The
  amounts billed reflect transactions as of September 10, 2002, the end date of our review period.
  30
      Unallowed costs are expenditures that do not comply with the Fund legislation, the approved
  initiatives, or costs stipulated in the RA; or for which the allowability could not be determined.
  Unsupported costs are transactions that were not adequately supported at the time of the audit.
  31
      SEPS was unable to distinguish the reimbursed transactions from its total expenditures related to
  its RA. Therefore, we tested a sample of transactions based upon the entire universe of transactions
  expended on the initiative, which totaled $1,158,134.
  32
     In addition, the FBI was provided with $966,550 to pass on to other federal, state, and
  local agencies. The pass-through monies are discussed in Finding 2.
  33
     This percentage was calculated by using the entire universe of transactions at the FBI, as
  discussed in Appendix I and detailed in the table on page 46.

                                                     12
                                                                     FBI EXPENDITURE TESTING
            REIMBURSEMENT                                                                                                                           QUESTIONED COSTS
                                        APPROVED CATEGORIES & USES OF                          AMOUNT           AMOUNT        TOTAL AMOUNT
FY            AGREEMENT                           FUNDING34                                     BILLED          TESTED         QUESTIONED
                                                                                                                                                UNALLOWED       UNSUPPORTED

        COUNTERTERRORISM &         Travel, other services, supplies, and equipment for the
1998    TECHNOLOGY CRIME           research and development of explosives detection                $9,358,493    $2,295,128          $16,626          $10,823            $5,803
                                   technology
        RESEARCH & DEVELOPMENT

                                   Travel, supplies, other services, and equipment to
        BOMB TECHNICIAN
1998                               improve the capabilities of state and local agencies             4,462,987     1,669,254          647,611          479,745           167,866
        TRAINING                   responding to bombing incidents

                                   Overtime; travel; rent, communications, & utilities;
        OKLAHOMA CITY BOMBING
1998                               other services; supplies; and equipment pertaining to            2,507,151     1,349,667           19,924           17,226             2,698
        INVESTIGATION
                                   the Oklahoma City bombing investigation

                                   Overtime; travel; rent, communications, & utilities;
        SOUTHEAST BOMBINGS
1998                               other services; supplies; and equipment related to the           4,344,833      880,235           259,321          232,146            27,175
        TASK FORCE
                                   manhunt of fugitive Eric Rudolph

                                   Overtime; travel & transportation; rent,
        U.S. EMBASSY BOMBINGS      communications, & utilities; other services; supplies;
1998                                                                                                7,709,007     1,146,237          339,433           34,470           304,963
        IN AFRICA                  and equipment necessary for investigating the
                                   bombings in Kenya and Tanzania

                                   Travel; rent, communications, & utilities; other
        NATIONAL INFRASTRUCTURE
1999                               services; supplies; and equipment for improvements to            9,108,236     4,649,574           25,351            9,680            15,671
        PROTECTION CENTER (NIPC)
                                   the NIPC

                                   Other services, supplies, and equipment for establishing
        CONTINUITY OF
1999                               an alternate government facility for the continuation of         1,638,579     1,043,055               31              31                  0
        GOVERNMENT FACILITY
                                   Department operations

        U.S. EMBASSY BOMBINGS      Overtime and travel necessary for investigating the
1999                                                                                                3,432,361      488,506             7,426            7,179              247
        IN AFRICA                  bombings in Kenya and Tanzania

        WORLD TRADE                Overtime; travel; rent, communications, & utilities;
2001    CENTER/PENTAGON            other services; and equipment in response to the                33,330,730    19,086,139            3,968                0             3,968
        BOMBINGS                   September 11 terrorist attacks

                TOTALS                                                                         $75,892,377      $32,607,795        $1,319,691        $791,300          $528,391

Source: JMD Budget Staff, FBI Budget Execution Unit, and OIG analysis


       34
          The category “other services” consists of various types of expenses, including construction, consulting, and interpreter
       services.
                                                                                              13
      In total, we identified $528,391 of unsupported costs in the categories
of travel; rent, communications, and utilities; other services; supplies; and
equipment. FBI officials stated that there was a fire at the National Records
Center that destroyed boxes of records, which may be the reason for some
of the missing documents. However, they were unable to definitively state
that FBI boxes were destroyed and did not provide us with any
documentation from the National Records Center as to when the fire
happened, how many boxes were destroyed, and which boxes were the
FBI’s. Beyond those records that may have been destroyed by the fire, we
noted instances of additional unsupported costs. For example:

      •     $22,500 was inadvertently billed for equipment because of an
            input error on the documentation submitted to JMD for
            reimbursement. The cost of the equipment was recorded as
            $25,000 instead of the actual expense of $2,500. We considered
            the difference of $22,500 to be unsupported.

      •     $62,509 was billed for other services; however, the FBI could
            only support $54,016. The difference of $8,493 was questioned
            as unsupported.

       In addition to these unsupported costs, we identified unallowable costs
totaling $791,300 attributed to the FBI. Specifically:

      •     $488,366 was unallowable because, although the FBI provided
            the requisite documentation to support the disbursement of
            funds (e.g., accounting reports, purchase orders, invoices,
            vendor receipts), it was unable to provide us documentation that
            clearly linked the expenditure to the specific counterterrorism
            initiative stipulated in the RA.

      •     $48,252 in billing errors was identified, including service charges
            for late payments on purchases ($18,410), expenses from the
            prior fiscal year ($17,226), a fax machine that was charged to the
            Fund twice ($10,480), and improper travel charges ($2,136). We
            spoke with personnel from the JMD Budget Staff regarding the
            late payment charges, and they concurred that late fees were not
            an allowable Fund expense. Regarding the prior fiscal year
            charges, the FBI’s request for monies from the Fund explicitly
            stated that the expenses would be incurred during FY 1998. The
            travel expenses were unallowable because they were not related
            to the approved counterterrorism initiative.



                                     14
      •     $254,682 was unallowable because the cost categories charged
            to the RA had not been approved by JMD. This included
            $123,212 for the reimbursement of services provided by state
            agencies, along with medical services in the amount of $107,480
            charged to the Southeast Bombings Task Force RA. These types
            of expenses were not included in the FBI’s description of costs
            for which they sought reimbursement from the Fund. Therefore,
            these services were not approved, as required, by JMD, the
            Attorney General, OMB, and Congress. In addition, the FBI
            received $23,990 in cash advances pertaining to one of the RAs
            for the African Embassy bombings. However, the FBI could not
            provide sufficient detail of how the funds were used. Thus, we
            considered these costs to be unallowable.

      Our review of the FBI’s Fund expenditures revealed an error rate of
12 percent in our prior audit and 4 percent in our current audit. Comparing
the two error rates, the FBI has shown improvement in the management of
its Fund expenditures. However, the FBI continues to have a significant
amount of dollar-related findings, as evidenced by the $1,319,691 of
questioned costs disclosed during our current review.

       We discussed our findings with the FBI prior to the issuance of this
report. The FBI agreed with our figures and continued to search for the
missing documentation for the expenditures that we determined to be
unsupported. FBI officials stated that, for some of the RAs, they had
expenditures in excess of the amounts billed to the Fund and these could
offset some of the questioned costs. In addition, the officials declared that
they were provided with little guidance on the allowability of expenditures.
For example, the officials acknowledged that they charged the interest and
penalties from late payments to the Fund, and explained that: 1) the fees
pertained to equipment purchases that were billable to the Fund, and 2) the
guidance provided by JMD did not specifically indicate that these costs were
not reimbursable.

       United States Marshals Service — In general, the USMS did not
adequately account for the reimbursements it received from the Fund. At
the time we issued our prior report in September 1999, the USMS did not
have an effective system to capture expenditures that would be reimbursed
by the Fund. We encountered this situation again during our follow-up
audit.

      After four months of requesting from the USMS summary ledgers and
detailed transaction listings for the 1998 RAs, we received information that
was pieced together and incomplete. Several entries on the summary

                                     15
ledgers did not have detailed listings from which we could review individual
transactions; we therefore considered these to be unsupported. From the
remaining items on the summary ledgers, we selected a sample of
transactions to test and identified such a high error rate associated with an
RA related to the Oklahoma City bombing trial that we tested virtually all of
the expenditures.

      In contrast, we received the data for the 2001 RA for the World Trade
Center and Pentagon bombings immediately upon request and our testing
revealed no discrepancies. The expenditures for this RA were made up
entirely of overtime transactions; however, the prior RAs included expenses
in addition to overtime, such as travel, guard services, equipment, rent, and
other services. The limited nature of the 2001 RA precludes us from
concluding that the USMS has resolved the problems of the past, because
only overtime expenditures were incurred.

       The following table identifies each USMS RA with the date it was
issued, the approved counterterrorism initiative, and the types of expenses
eligible for reimbursement. In addition, it provides the amount the USMS
billed against each RA, the dollar amount that we tested, the questioned
costs we identified, and the breakdown of questioned costs as unallowed or
unsupported.




                                      16
                                                     USMS EXPENDITURE TESTING


                                                                                                                                       QUESTIONED COSTS




                                                                                                AMOUNT TESTED
                                                                               AMOUNT BILLED




                                                                                                                    TOTAL AMOUNT
                                                                                                                     QUESTIONED




                                                                                                                                                          UNSUPPORTED
                                                                                                                                         UNALLOWED
        REIMBURSEMENT        APPROVED CATEGORIES & USES
FY
          AGREEMENT                 OF FUNDING




                            Travel; guards; communications;
                            overtime for judge protection detail,
       OKLAHOMA CITY
1998                        witness security inspectors, and the bomb         $1,097,394       $1,089,298              $964,969         $438,768         $526,201
       BOMBING TRIAL
                            dog squad; and equipment for costs
                            associated with security at the trial
                            Travel, guards, services, rents &
                            communications, overtime for judge
                            protection detail and the bomb dog squad,
1998   FREEMEN TRIAL                                                                526,219          390,902             319,484         283,825              35,659
                            and equipment for costs pertaining to the
                            physical security of the courthouse during
                            the trial
       WORLD TRADE
                            Overtime in response to the
2001   CENTER/PENTAGON                                                         1,016,755                   23,220                  0                 0                  0
                            September 11 terrorist attacks
       BOMBINGS

             TOTALS                                                           $2,640,368       $1,503,420           $1,284,453          $722,593         $561,860
Source: JMD Budget Staff, USMS Management and Budget Division, and OIG analysis




                                                                         17
•   Oklahoma City Bombing RA: The USMS billed the Fund for
    $1,097,394 for the reimbursement of some of its costs related to
    the Oklahoma City bombing trial. In the process of testing our
    initial sample of expenditures, we found that all or part of each
    sample transaction contained errors. As a result, we selected a
    much larger sample and tested nearly every transaction. In
    total, we reviewed $1,089,298 and found $964,969 in
    questioned costs, resulting in an error rate of 89 percent. Of the
    total amount questioned, $526,201 was unsupported, as detailed
    below:

          In preparing the records for our review, the USMS
          determined that it could not provide adequate
          documentation to support disbursements totaling
          $209,191. These expenditures consisted of travel,
          supplies, and equipment expenses.

          $317,010 in unsupported expenditures was identified
          during our testing of travel and guard services
          transactions. The USMS was unable to provide us with
          proper supporting documents, including travel vouchers,
          travel authorizations, receipts, and invoices.

    The remaining $438,768 of our questioned costs was
    unallowable, as detailed below:

          We identified $384,937 in costs charged to the Fund for
          categories that were not approved by JMD for
          reimbursement. Specifically, the USMS was reimbursed
          from the Fund for Deputy U.S. Marshals’ overtime
          ($380,529), office supplies ($1,005), and vehicle expenses
          ($3,403) even though these items were explicitly denied
          by JMD in its assessment of the USMS request.

          $40,810 in travel expenses was unallowable because:
          1) the travel was not related to the Oklahoma City
          bombing trial, 2) the expenses were incurred during the
          fiscal year prior to the effective date of the RA, or 3) the
          travel was not authorized.

          $13,021 charged for computer equipment was not related
          to the Oklahoma City bombing RA. This expense was
          billed to the Fund under both the Freemen trial and
          Oklahoma City bombing trial RAs. This equipment was

                              18
                  purchased for the Freemen trial and should not have been
                  charged to the Oklahoma City bombing trial RA.

      •     Freemen Trial RA: The USMS also received $526,219 for the
            reimbursement of some of its costs related to the Freemen trial.
            We tested $390,902 of its expenditures, which was 74 percent of
            the universe. Our testing again revealed a high error rate,
            amounting to 82 percent of the expenditures reviewed. The
            total questioned costs were $319,484, of which $35,659 was
            unsupported because the USMS was unable to provide us with
            proper supporting documents (e.g., travel vouchers, receipts,
            and invoices). The remaining $283,825 in questioned costs was
            unallowable, as detailed below:

                  The USMS billed the Fund $286,500 for the purchase and
                  installation of a video-teleconferencing system for the
                  Freemen trial. In the initial request for funding, the USMS
                  asked for $275,000 for the system. In JMD’s analysis of
                  the request and the subsequent approvals by the Attorney
                  General, OMB, and Congress, only $50,000 was approved.
                  Therefore, we questioned the difference of $236,500. The
                  USMS stated that they would reimburse the Fund for the
                  amount overcharged.

                  $11,360 was unallowable because, although the USMS
                  could fully support the financial transaction, officials could
                  not provide documentation that clearly connected the
                  equipment purchase to the Freemen trial.

                  $32,165 of Deputy U.S. Marshals’ overtime charged to the
                  Fund was unallowable because it was explicitly denied by
                  JMD in its assessment of the USMS request.

                  $3,800 in travel expenditures was erroneously charged to
                  the Fund twice.

      •     World Trade Center and Pentagon Bombings RA: The USMS was
            reimbursed $1,016,755 for overtime costs related to the
            September 11, 2001, terrorist attacks. The results of our testing
            identified no deficiencies.

       In the previous audit, our testing at the USMS revealed that the
agency did not have an effective system for tracking expenditures, and we
identified an overall error rate of about 24 percent. As a result, we advised

                                      19
JMD that it needed to ensure that funds provided to the USMS were used
appropriately. However, weak management of Fund monies continued to
exist; our current review disclosed an overall error rate of 85 percent.

      We discussed these findings with USMS officials who agreed with our
figures. In response to billing the Fund for costs that had been explicitly
denied by JMD during the RA approval process, USMS officials explained that
the staff members preparing the bills had not been informed by their
superiors of the JMD denials; the staff was only aware of what had been in
the initial request submitted by the USMS.

      The officials added that they now have a new accounting system.
They stated that the new system has improved their financial operations and
commented that the funding provided under the 2001 World Trade Center
and Pentagon bombings RA was adequately tracked. In response, we noted
that all of the expenditures reimbursed under this RA were for overtime;
thus, we could not conclude that the USMS had taken corrective action in its
other expenditure areas because the control systems for payroll are different
than those for other disbursement transactions.

      Executive Office for United States Attorneys — EOUSA received
$2,763,817 from the Fund for the reimbursement of expenses related to
three RAs for prosecutions pertaining to the terrorist bombings in Oklahoma
and Africa. The following table identifies each RA with the year it was issued
and the allowable uses of funds for the approved counterterrorism initiative.
In addition, it provides the amount EOUSA billed against each RA, the dollar
amount that we tested, the questioned costs we identified, and the
breakdown of questioned costs as unallowed or unsupported.




                                     20
                                   EOUSA EXPENDITURE TESTING

                                                                                                                          QUESTIONED




                                                                                          AMOUNT TESTED
                                                                      AMOUNT BILLED




                                                                                                           TOTAL AMOUNT
                                                                                                                            COSTS




                                                                                                            QUESTIONED




                                                                                                                                              UNSUPPORTED
                                                                                                                            UNALLOWED
           REIMBURSEMEN      APPROVED CATEGORIES
FY
            T AGREEMENT        & USES OF FUNDING




                            Personnel costs; travel; rent,
                            utilities, & communications;
199        OKLAHOMA CITY
                            litigation services; supplies; and    $1,869,661           $565,332           $17,151         $14,135           $3,016
 8         BOMBING TRIAL
                            equipment related to the
                            prosecution of Terry Nichols

                            Travel; rent & communications;
           TRIAL FOR THE
                            litigation, contract, & interpreter
200        U.S. EMBASSY
                            services; supplies; and                 805,717             466,011                      0                  0                   0
 0         BOMBINGS IN
                            equipment for the proceedings
           AFRICA
                            of the trial

                            Personnel costs, travel, litigation
200        OKLAHOMA CITY    services, supplies, and
                                                                     88,439              12,268                 340            340                          0
 0         BOMBING TRIAL    equipment necessary to close
                            out the trial

               TOTALS                                             $2,763,817          $1,043,611          $17,491         $14,475           $3,016

Source: JMD Budget Staff, EOUSA Resource Management and Planning Staff, and OIG analysis

            Our review of a sample of transactions totaling $1,043,611
      (34 percent of the universe35) resulted in the identification of $17,491 in
      questioned costs. We identified:

               •      unsupported costs in the amount of $3,016, which consisted
                      mainly of lodging costs claimed on travel vouchers; the
                      supporting lodging bills could not be located.

               •      unallowable costs totaling $14,475 for: 1) expenditures that
                      were made prior to the effective date of the RA, or 2) travel
                      vouchers that were not properly approved; the traveler had
                      signed as the approving official.



      35
         This percentage was calculated by using the entire universe of transactions at EOUSA, as
      discussed in Appendix I and detailed in the table on page 46.

                                                          21
       Our testing at EOUSA revealed only minor discrepancies as indicated
by an overall error rate of 2 percent. In comparison, our prior audit
identified a 15 percent error rate. Thus, it appears that EOUSA has
significantly improved its management of reimbursements from the Fund.
We discussed our findings with EOUSA officials who expressed their belief
that every transaction the agency had charged to the Fund was fully
supported and allowable. Also, they stated that they had additional
expenses that could be charged to offset a majority of the questioned costs.

        Security and Emergency Planning Staff — Since the initiation of the
Fund in 1995, SEPS has only received one RA. SEPS received $510,000
from the Fund in FY 2000 for the reimbursement of expenses related to
ensuring the continuation of government operations in times of emergency.
This involved assembling an undisclosed, alternate location from which
Department officials could continue to operate in the event of a disaster
affecting the Department or one of its components. SEPS was unable to
distinguish the reimbursed transactions from its total expenditures for this
initiative. Therefore, our universe of transactions to be tested was
$1,158,134. This consisted of rent, equipment, supplies, travel, furniture,
and other services. Our sample of transactions totaled $656,251, which was
57 percent of the universe of expenditures.

       Our review resulted in the identification of $19,504 in dollar-related
deficiencies, which amounted to an error rate of 3 percent. Specifically,
$17,339 was unsupported and consisted of a computer purchase for which
the invoice could not be located. SEPS acknowledged that the invoice could
not be found, and SEPS returned the money to the Fund. In addition, we
identified $2,165 in unallowable costs that was due to an accounting error.
This expense was not a continuation of operations cost and was
inadvertently charged to this initiative. SEPS has corrected this error and
returned the money to the Fund. Although the total of these two exceptions
($19,504) has been returned, JMD has not yet officially deobligated this
amount. As previously discussed, SEPS did not receive monies from the
Fund during FYs 1995 through 1997, the review period of our first audit.

       Criminal Division — In FY 1998, Congress earmarked $1 million from
the Fund for the development of a 5-year inter-departmental
counterterrorism and technology crime plan to be prepared by the Criminal
Division. The legislative conference report stated: “. . . this plan will serve
as a baseline strategy for coordination of national policy and operational
capabilities to combat terrorism and will be updated annually to
institutionalize this effort.” 36
36
   Conference Committee Report 105-405, dated November 13, 1997, contains more
specific information pertaining to the creation of this inter-departmental plan.

                                         22
       The Criminal Division was reimbursed $944,351 for expenditures
incurred for this initiative. The costs included salaries and benefits,
consulting services, equipment, and overhead expenses. Our review of
$196,141 of the related expenditures, which represented 21 percent of the
universe, disclosed no exceptions. The Criminal Division did not receive
monies from the Fund during FYs 1995 through 1997, the review period of
our first audit.

Overall Assessment of Department Components

       During our initial audit, we identified significant deficiencies related to
the management of Fund monies at many of the components audited,
resulting in a combined component error rate of almost 16 percent of the
expenditures reviewed. In response, JMD officials stressed that receiving
components were primarily responsible for adequately managing the funds
received. Our current audit has revealed that, in general, there has been
some improvement in the management of funds, as evidenced by the
decrease in the combined error rate for all direct component expenditures,
which is currently 7 percent.

       The combined error rate has decreased; however, our current audit
revealed significant questioned costs, totaling over $2.6 million. In addition,
fiscal management weaknesses persisted at the component level. The
following table compares the error rate for each of the components that
received funding during our prior and follow-up audits.

        COMPARISON OF DEPARTMENT COMPONENTS’ ERROR RATES37
                                               PRIOR       FOLLOW-UP
                         COMPONENT
                                               AUDIT         AUDIT

                  CRIMINAL DIVISION              N/A            0.0
                  DEA                            77.5           N/A
                  EOUSA                          15.3           1.7
                  FBI                            12.1           4.1
                  INS                            0.0            N/A
                  SYSTEMS TECHNOLOGY
                                                 0.0            N/A
                  STAFF (JMD)
                  SEPS (JMD)                     N/A            3.0
                  USMS                           24.0           85.4



37
  The error rates are the questioned costs as a percent of the dollars reviewed at each
component.

                                            23
      Since the FBI, USMS, and EOUSA are the Department’s primary
investigating and prosecuting agencies involved in terrorism matters, it is
logical that they continue to be heavy users of the Fund. Therefore, these
components should ensure that: 1) they have a system to adequately track
expenditures reimbursed with Fund monies, and 2) expenditures billed against
the Fund are allowable and fully supported. As illustrated in the following
chart, the condition at each of these components changed significantly
following our previous audit. Although the dollar amount of questioned costs
at the FBI was significant, the FBI and EOUSA both improved their operations,
as evidenced by a lower error rate. In contrast, the situation at the USMS has
dramatically worsened.


                                        ERROR RATE COMPARISON OF THE EOUSA, FBI, & USMS
                                                PRIOR AUDIT TO FOLLOW-UP AUDIT


                                                                                  85.4%
                               90.0%

                               80.0%

                               70.0%
     ERROR RATE (in percent)




                               60.0%

                               50.0%
                                                                                          Prior Audit
                               40.0%                                                      Current Audit

                               30.0%                                      24.0%

                                       15.3%
                               20.0%                      12.1%

                               10.0%                              4.1%
                                               1.7%

                               0.0%
                                       EOUSA              FBI              USMS
                                                  DEPARTMENT COMPONENT




Recommendations

     We recommend the Assistant Attorney General for Administration:

1.   In consultation with EOUSA, remedy the $17,491 in questioned costs.

2.   In consultation with the FBI, remedy the $1,319,691 in questioned
     costs.

                                                                  24
3.   In consultation with the USMS, remedy the $1,284,453 in questioned
     costs.

4.   Remedy the $19,504 in questioned SEPS expenditures that have been
     reversed but have not been deobligated.

5.   Ensure that the FBI and USMS improve their controls over Fund
     monies to reduce the likelihood that reimbursements are requested for
     inappropriate items, particularly those that were not authorized by
     JMD in the RA approval process.




                                   25
2.   Reimbursements to Non-DOJ Components

     Between FYs 1998 and 2002, a total of $2.7 million in Fund
     monies was passed through the FBI and JMD to other federal,
     state, and local agencies. Our audit revealed that these funds
     were not adequately monitored by these two components,
     putting the funds at a greater risk of misuse. We identified over
     $430,000 in questioned costs, representing 19 percent of the
     $2.3 million we tested. Our prior audit disclosed similar findings,
     and it appears that little improvement has been made in the
     management of these pass-through funds.

Non-DOJ Component Reimbursement Process

       Congress has approved the Fund’s use to reimburse certain state and
local governments as well as other federal agencies for costs related to
terrorism initiatives and investigations. At times, Congress has directly
approved these reimbursements by earmarking Funds for particular uses.
For example, the Fund’s annual appropriations legislation has included a
stipulation that state and local agencies of New York receive funding in
FY 1997 for their response to the crash of TWA flight 800. In addition,
Congress directed that the city of Ogden, Utah, receive reimbursement for
costs related to security preparations for the 2002 Winter Olympics.

      When funding is not earmarked by Congress, the non-DOJ agencies
generally submit requests to one of the Department components, which in
turn submits the requests to JMD on their behalf. For example, the Georgia
Department of Corrections and the U.S. Department of Agriculture (USDA)
Forest Service each submitted a reimbursement request to the FBI to
recover funds expended in support of the FBI Southeast Bombings Task
Force’s manhunt of Eric Rudolph. These requests then go through the
normal review and approval processes discussed on page 4.

      Generally, these pass-through funds are processed in much the same
way as the direct component reimbursements. JMD executes an RA with a
Department component containing a provision that certain funds are to be
passed on to another user. This agreement makes the pass-through
component responsible for managing and transferring the funds to the non-
DOJ agencies. Specifically, the pass-through agency receives the billing
documentation submitted by the end-user and provides JMD with a bill for
the reimbursement of Fund monies to that agency. We encountered one
instance, however, in which funding was provided directly to the city of
Ogden, Utah, via a grant agreement with JMD. In this instance, the JMD
Finance Staff assumed the responsibility for the management of the funds.

                                     26
Prior Audit Results

       In our prior audit, the FBI was the only Department component that
acted as a pass-through agency to provide monies to non-DOJ recipients.
We reported that a significant portion of these funds was improperly used, in
part because the FBI did not adequately manage these monies. As a result,
we identified over $1.1 million in questioned costs and funds to better use,
which reflected 20 percent of the pass-through expenditures reviewed. One
of the weaknesses identified was that written agreements detailing the
purpose and appropriate costs of the reimbursement were not always
utilized between the FBI and the non-DOJ agency, increasing the risk that
unallowable expenses would be charged to the Fund. In addition, the FBI
did not require the end-users to submit detailed documentation of their
expenditures prior to reimbursement. A significant portion of our dollar-
related findings (36 percent) was due to transactions lacking appropriate
supporting documentation.

Current Non-DOJ Users & Initiatives

        During FYs 1998 through 2002, non-DOJ components were approved
to receive funding totaling almost $4 million for various terrorism-related
initiatives.38 The following table provides an overview of this pass-through
funding. Specifically, it identifies the amount of monies obligated to
Department components (i.e., pass-through agencies) for the
reimbursement of costs incurred by non-DOJ agencies (i.e., end-users) for
each agreement, including the fiscal year it was issued. In addition, the
table explains the purpose of each agreement, the approved expenditures
for each initiative, and whether Congress had earmarked the funds.




38
   As noted on page 8, OJP received an additional $151 million during FYs 1998 and 1999
to pass on to state and local agencies; however, this funding was excluded from our review.

                                            27
                                  OVERVIEW OF FUNDING PROVIDED TO NON-DOJ USERS


         PASS-                                                                                                       EARMARKE
FY     THROUGH                                                                                                            D        AGREEMEN
                        END-USER                      PURPOSE                    APPROVED EXPENDITURES
        AGENCY                                                                                                       INITIATIVES   T AMOUNT
                                                                                                                       (Yes/No)

                                                                                Communication consulting
                                          To improve the security               services; the design, engineering,
1998     JMD      City of Ogden, Utah     enhancements for the 2002 Winter      and construction of a                    Yes          $3,000,000
                                          Olympics in Utah                      communications facility; and
                                                                                communication-related equipment
                                          Additional security at the trial of
                  Denver Police
1998     FBI                              Oklahoma City bombing suspect         Overtime                                 No             108,290
                  Department
                                          Terry Nichols
                                          To assist the FBI’s Southeast
                  Georgia Department of                                         Overtime and travel &
1998     FBI                              Bombings Task Force in the                                                     No             652,560
                  Corrections                                                   transportation
                                          manhunt of Eric Rudolph
                                          To assist the FBI’s Southeast         Overtime, travel & transportation,
1998     FBI      USDA Forest Service     Bombings Task Force in the            other services, supplies, and            No             205,700
                                          manhunt of Eric Rudolph               equipment

                                                          TOTAL                                                                       $3,966,550

Source: JMD Budget and Finance Staffs, FBI Budget Execution Unit, and OIG analysis




                                                                        28
 Funding Agreements

       As stated earlier, the agreements signed by JMD and the Fund
 recipients stipulate that the recipients are responsible for ensuring that
 expenditures are allowable, supported, and used in accordance with
 authorized purposes. The JMD Budget Staff applies this same requirement
 to the Department components that receive the monies to be passed
 through to non-DOJ agencies. In other words, the Department component
 that enters into an RA on behalf of a pass-through agency is accountable for
 the amounts billed to the Fund. Therefore, the Department component
 should ensure that supporting documentation is maintained for the
 expenditures charged to the Fund and review the costs submitted by the
 end-user for allowability.

       Between FYs 1998 and 2002, only two Department components – the
 FBI and JMD – acted as pass-through agencies. Our review of these
 agreements and related expenditures totaling over $2.3 million revealed
 more than $430,000 in questioned costs, or 19 percent of the amount
 tested. We examined, if possible, the selected expenditures for
 reasonableness, appropriateness, compliance with Fund legislation, and
 adequacy of supporting documentation.

                              RESULTS OF EXPENDITURE TESTING

                  REIMBURSEMENT                             TOTAL
                                             AMOUNT                          QUESTIONED COSTS
   AGENCY            AMOUNTS                               AMOUNT
                                            REVIEWED
                                                          QUESTIONED
                 FUNDED        BILLED                                     UNALLOWED      UNSUPPORTED

City of Ogden,
                 $3,000,000    $1,993,863    $2,082,331        $187,922        $84,030        $103,892
Utah39
Denver Police
                   108,290       108,290       108,290          108,290             0          108,290
Department
Georgia
Department of      652,560       525,772        17,367           17,367         17,367              0
Corrections
USDA Forest
                   205,700       116,553       116,553          116,553             0          116,553
Service

TOTALS           $3,966,550    $2,744,478    $2,324,541        $430,132       $101,397        $328,735

Source: JMD Budget and Finance Staffs, FBI Budget Execution Unit, and OIG analysis



 39
     We reviewed approximately $90,000 more than the amount reimbursed because the city
 of Ogden reduced one of its billings to account for an expenditure that it thought had been
 billed to the Fund twice. However, based upon our testing, no expenditures were charged
 to the Fund more than once.

                                                   29
      In general, we found that the FBI did not adequately manage the Fund
monies provided to other users. In each of its arrangements, the FBI failed
to obtain or maintain documentation to support the overall amounts billed by
the end-users. In addition, we found that JMD had allowed payments for
expenses expressly prohibited in the funding agreement. Details of our
findings related to each user follow.

      City of Ogden, Utah — In the FY 1998 appropriations, Congress
stipulated that the city of Ogden, Utah (Ogden), was to receive $3 million
from the Fund for security enhancements at the 2002 Winter Olympics.40
JMD entered into a grant agreement with Ogden on November 4, 1997,
which entitled Ogden to receive reimbursement of specific expenditures
incurred in the construction of communications towers as well as the
purchase of communications equipment. According to the JMD Budget Staff,
this agreement was unique because: 1) a grant agreement had never been
used before as a vehicle for providing Fund reimbursements to non-DOJ
users, and 2) Ogden dealt directly with JMD instead of working through
another Department component. The JMD Finance Staff was placed in
charge of administering the grant agreement.

       We reviewed all Ogden transactions, which totaled $2,082,331.41 Our
analysis of the Fund expenditures resulted in the identification of $187,922
in dollar-related deficiencies, of which $103,892 was unsupported and
$84,030 was unallowable. For example:

         •      In violation of the grant agreement, Ogden received
                reimbursement for overhead charges. The grant agreement
                explicitly stated, “Ogden is not entitled to reimbursement of
                indirect costs, such as salaries and administrative expenses of its
                employees and operations.” Ogden submitted a letter to the
                JMD Finance Staff indicating that it would like to charge
                overhead costs at a rate of 5 percent for each of its
                expenditures. In response to Ogden’s request, the JMD Finance
                Staff allowed Ogden to bill the Fund for indirect costs at the
                5 percent rate. As a result, Ogden began including indirect
                expenses in its billings and had been reimbursed $83,584 for
                these charges. However, the JMD Finance Staff did not request
                or receive approval to override the grant agreement that was
                signed by the Assistant Attorney General for Administration.



40
     Public Law 105-018, Chapter 2, General Provisions, Section 2001.
41
     A detailed explanation of our methodology is contained in Appendix I.

                                              30
     •     Ogden billed the Fund and received reimbursement for an
           encumbrance (i.e., obligation) rather than an actual expense.
           Ogden did not have supporting documentation for the $101,931
           charged since it had not yet incurred the expense.

           As part of its billing process, Ogden submitted a cover page
           stating the amount requested for reimbursement as well as a
           progress report explaining the status of the security
           improvements, which generally did not include amounts of the
           specific expenditures. The JMD Finance Staff did not ask Ogden
           to provide documentation to support its expenditures. If the
           JMD Finance Staff had regularly requested supporting documents
           for review, this billing error could have been discovered. Ogden
           officials were aware of this situation at the time of our review
           and indicated that they would take corrective action for this error
           in their final billing.

       Denver Police Department — On November 21, 1997, the Denver
Police Department (Denver PD) submitted a request to the JMD Budget Staff
for reimbursement from the Fund. At the time, the request was only an
estimate of its costs associated with security at the trial of Oklahoma City
bombing suspect Terry Nichols. JMD had a copy of a November 27, 1997
memorandum that was circulated within the FBI, which stated that the FBI
supported the Denver PD’s request for reimbursement of overtime expenses.
This memorandum further stated that the FBI’s National Security Division
could not verify the total amount requested or confirm that the amount
requested did not also include salaries and benefits. On June 18, 1998, the
Denver PD submitted a revised request to JMD that provided the actual
overtime costs incurred. In September 1998, the FBI entered into an RA
with the Department stipulating that the FBI was to reimburse the
Denver PD $108,290 for overtime costs in relation to the trial.

       According to billing documentation provided by the FBI, the Denver PD
was reimbursed the entire $108,290. To test these pass-through funds, we
asked the FBI for a transaction listing of the overtime costs included in the
billing. In response, we were informed that the FBI did not have a detailed
transaction listing or a written agreement with the Denver PD. The FBI then
attempted to obtain a listing from the Denver PD; however, the Denver PD
was unresponsive and never provided a listing. Thus, we questioned the
entire amount reimbursed to the Denver PD as unsupported.

      Georgia Department of Corrections — In September 1998, the FBI
entered into an RA with the Department that included $652,560 to
reimburse the Georgia Department of Corrections (Georgia) for overtime and

                                     31
travel expenses related to the assistance provided to the FBI Southeast
Bombings Task Force’s pursuit of Eric Rudolph. According to documentation
provided by the FBI, Georgia was reimbursed a total of $525,772.42 We
asked the FBI for documentation to support the payments, including a
transaction listing of Georgia’s expenditures. The FBI provided us with the
reimbursement agreement it executed with Georgia, correspondence
pertaining to the reimbursement requests submitted by Georgia, and a
transaction listing for a portion of the overtime costs charged to the Fund
totaling $159,852. The FBI did not have detailed transaction listings for the
remaining $365,920 paid to Georgia. In response to our inquiry, the FBI
requested and received a listing from the agency.

       Our review of the transaction listings and billing documents that the
FBI was able to provide revealed that Georgia was reimbursed for
unapproved expenses totaling $17,367. Specifically, Georgia charged the
Fund for regular operating expenses, telephone charges, and cabling and
splicing kits for perimeter security. According to the agreement between the
FBI and Georgia, only overtime and travel expenses were to be reimbursed.
As a result, we questioned the $17,367 as unallowable.

       From the remaining transactions on the listings provided, we selected
a sample of expenditures totaling $174,508 for review. After providing the
selected transactions to Georgia, the FBI informed us that Georgia had
destroyed all of the records for these expenditures. Georgia provided a
letter indicating that its records had been destroyed in accordance with its
record retention policy and provided us with a copy of the official notice of
records destruction.

       We did not question any of these charges (except the $17,367 noted
above) as unsupported because: 1) the FBI was able to provide transaction
listings that were sufficiently detailed, and 2) Georgia provided us with
documentation that the records had been destroyed in accordance with its
official retention policy; the written agreement between the FBI and Georgia
did not specify a record retention period.

      USDA Forest Service — In September 1998, the FBI entered into an
RA with the Department stipulating that the FBI was to reimburse the USDA
Forest Service (Forest Service) $205,700 for overtime, travel, other
services, supplies, and equipment expenses. This funding was for the Forest
Service’s assistance with the FBI Southeast Bombings Task Force’s pursuit of
Eric Rudolph. Based upon documentation provided by the FBI, the Forest

42
   The FBI informed JMD that the remaining funds totaling $126,788 would not be
expended and were deobligated by JMD.

                                          32
Service was reimbursed for expenditures totaling $116,553.43 We asked the
FBI for a listing of the Forest Service’s expenditures that were reimbursed
from the Fund. The FBI provided us with correspondence pertaining to the
reimbursement request submitted by the Forest Service and various
computer-generated reports that could not be interpreted; no written
agreement between the FBI and Forest Service was provided.

      We asked FBI officials for an explanation of the computer-generated
reports; they informed us that they could not explain them. The FBI then
obtained a clear listing of transactions from the Forest Service, and we
selected a sample of expenditures totaling $72,926 for review. After
providing the selected transactions to the Forest Service, we were informed
by the FBI that the Forest Service no longer had supporting documentation
for the expenditures. However, we were not provided with any documents
from the Forest Service supporting this assertion. As a result, we
questioned the entire $116,553 billed to the Fund as unsupported.

Conclusion

      The Fund was initially established to reimburse Department
components for extraordinary expenses incurred while combating and
reacting to unanticipated and catastrophic terrorist incidents. However,
Congress has, on several occasions, directed that Fund monies be provided
to reimburse other federal, state, and local agencies for certain terrorism-
related initiatives. To execute these reimbursements, the funds were passed
through Department components. The pass-through agencies are required
to ensure that Fund expenditures incurred by non-DOJ components were
allowable, supported, and used in accordance with authorized purposes.

      In the prior audit, we disclosed significant weaknesses in this area and
concluded that funding provided to non-DOJ users had to be monitored more
closely to ensure that funds were used properly. Our current audit has
revealed that this problem continues to exist. We identified $430,132 in
questioned costs, which represents 19 percent of the $2.3 million reviewed, or
about the same error rate as the 20 percent error rate identified in this area
during our initial audit. In addition, written agreements were not always
issued, and in instances where an agreement was formalized, these guidelines
did not reduce the likelihood that unallowable costs would be reimbursed.
Department components need to improve their monitoring of the funds
reimbursed to pass-through recipients to ensure that Department resources
are safeguarded and used for their intended purpose.

43
  The FBI informed JMD that the remaining funds totaling $89,147 would not be expended
and were deobligated by JMD.

                                          33
Recommendations

     We recommend the Assistant Attorney General for Administration:

6.   In consultation with the city of Ogden, Utah, remedy the $187,922 in
     questioned costs.

7.   In consultation with the FBI, remedy the $108,290 in questioned costs
     attributable to the Denver Police Department.

8.   In consultation with the FBI, remedy the $17,367 in questioned costs
     attributable to the Georgia Department of Corrections.

9.   In consultation with the FBI, remedy the $116,553 in questioned costs
     attributable to the USDA Forest Service.




                                   34
3.    JMD Oversight of the Fund

      As the Fund administrator, JMD needs to carefully monitor Fund
      expenditures to ensure its availability during times of extreme
      need. Our prior audit disclosed that JMD needed to take a more
      proactive approach in monitoring Fund expenditures, as
      indicated by our identification of $4.1 million in dollar-related
      findings, or 17 percent of the total funds reviewed. In
      comparison, our current audit has revealed a total of $3.1 million
      in dollar-related findings, or 8 percent of the overall funds
      reviewed, resulting from expenditures that were either improper
      or were not adequately supported. The current results illustrate
      that JMD has made some improvement in its controls over the
      use of Fund monies, but it needs to further strengthen controls.
      Funds continue to be at risk of misuse and fewer resources could
      be available to the Department for responding rapidly and
      effectively to unanticipated terrorist acts.

       In the prior report, we provided JMD with several recommendations to
assist in improving its oversight of the Fund. As noted in Findings 1 and 2 of
our current audit, we reviewed Fund expenditures for FYs 1998 through
2002 to determine whether there had been improvement in the recipients’
management of Fund monies since the prior audit. Although JMD has
strengthened its administration by taking timely action to close RAs and
overseeing the improvements at EOUSA and the FBI, there remain areas of
continued weaknesses. Specifically, we found that components were billing
and receiving funds for expenditures that: 1) were not approved costs of
the Fund, 2) were explicitly denied, or 3) lacked supporting documentation.
Further, we found that significant weaknesses persisted or worsened at the
USMS and that funding provided to non-DOJ users continued to be at risk of
misuse. In order to maintain the integrity of the Fund, JMD must strengthen
its controls over the administration of the Fund.

Prior Report

      The prior report stated that JMD had no system to monitor Fund
recipients to ensure that actual expenditures were allowable and supported,
and that Fund monies were used in accordance with authorized purposes.
According to JMD, Fund recipients are responsible for ensuring the
appropriateness of their expenditures. As previously discussed, the RAs
between JMD and Department components state: "The Chief Financial
Officer [CFO] for your organization must certify that all amounts billed under
this agreement have been expended only for the specified purposes, and will


                                     35
retain all supporting documents associated with the billings under this
agreement."

       In our prior audit, we made several recommendations to JMD to
improve its administration of the Fund, and to help ensure that adequate
funds remained available to the Department for responding rapidly and
effectively to terrorism-related incidents. For example, we recommended
that JMD: 1) develop and issue guidance for all Fund users regarding the
appropriate use of Fund monies; 2) develop and implement a plan to
increase oversight of the Fund, including periodic monitoring of actual
expenditures; and 3) determine if inactive RAs can be closed, and if so,
deobligate the remaining unexpended funds and make them available to
others. The JMD Budget Staff responded to the first two recommendations
by sending out a memorandum to recipients that reiterated the purpose and
appropriate use of the Fund, the CFO’s responsibility, and the requesting
process. In addition, they stated that they “. . . will continue to review all
component billings as they are submitted. This includes reviewing all backup
documentation for accuracy and appropriateness, prior to the processing of
the billing.” In response to the third recommendation noted above, JMD
reviewed and closed the open 1995 and 1996 RAs, which resulted in the
deobligation of Fund monies totaling over $270,000.

Improvements

      During our current review, we noted two areas of improvement
regarding the administration of the Fund.

       Timely Closure of RAs — In the prior report, we recommended that
JMD determine if open RAs could be closed and if so, deobligate the
remaining unexpended funds. At the beginning of our follow-up audit, there
were seven open agreements – three from FY 1998, two from FY 1999, and
two from FY 2001. Our review of these open RAs revealed that JMD
continued to monitor and follow-up with the components on outstanding
obligations. During FY 2003, the FBI submitted documentation to close one
of its RAs, and the city of Ogden, Utah, and the USMS noted that they would
be submitting final bills in the near future that would close their open
agreements. In our opinion, JMD has remained watchful of the open RAs.

       Component Progress — Our review of direct Department component
Fund expenditures revealed a combined error rate of almost 16 percent in
our prior audit and 7 percent in our current audit. Specifically, EOUSA
improved from the prior audit error rate of 15 percent to a 2 percent error
rate during the current review period. Similarly, the FBI reduced its error
rate from 12 percent to 4 percent. These improvements are significant and

                                     36
can be attributed to the Department components’ management of Fund
expenditures, as well as JMD’s oversight of the Fund.

Continuing Weaknesses

      Our review disclosed five areas in which JMD should strengthen its
oversight of the Fund.

      Payments for Denied Expenses — As noted earlier, JMD Budget
analysts review components’ requests to determine if the expenditures for
which they are requesting reimbursement are appropriate uses of the Fund.
Based upon these analyses, JMD recommends funding amounts that must be
approved by the Attorney General, OMB, and Congress. However, we found
that the USMS received $653,602 for categories or items that were
specifically included in its funding requests but were explicitly denied for
reimbursement, as detailed in the following table.

         USMS REIMBURSED EXPENDITURES FOR DENIED CATEGORIES

                                                                      DENIED
         REIMBURSEMENT           CATEGORY/ITEM DENIED               CATEGORY
           AGREEMENT
                                                                   EXPENDITURES

                                        Deputy overtime                     $380,529
      Oklahoma City Bombing
              Trial                    Vehicle expenses                        3,403
                                            Supplies                           1,005
                                        Deputy overtime                       32,165
           Freemen Trial
                                Video teleconferencing equipment             236,500

                                            TOTAL                           $653,602
     Source: JMD Budget Staff, USMS Management and Budget Division, and OIG analysis


     •       As discussed on page 19, the USMS requested $275,000 for a
             video teleconferencing system for the Freemen trial and JMD
             Budget reduced this amount to $50,000 based on prior requests
             for the same type of equipment. The USMS then submitted a
             billing that included a $275,000 equipment purchase and the
             related installation bill for $11,500. Despite only $50,000 being
             approved, the total amount of $286,500 was reimbursed to the
             USMS for this equipment.

     •       JMD denied the categories of deputy overtime, supplies, and
             vehicle expenses specifically requested by the USMS; the
             Attorney General, OMB, and Congress approved the
                                           37
             recommendation by JMD. However, the USMS billed these costs
             to the Fund and received the requested reimbursement.

      If the JMD Budget Staff had properly reviewed the USMS’s billings and
backup documentation, these items would have been obvious. A comparison
of the billed items to the approved categories would have revealed that
these items were explicitly denied.

      Reimbursement of Unapproved Costs — In some instances, the
components charged for costs outside the scope of what had been requested
and approved for the RA. The following table identifies these costs,
including expenditures incurred prior to the effective date of the RA, late
payment penalties, and costs unrelated to the initiative or cost categories
stipulated in the RA.

                REIMBURSEMENTS FOR UNAPPROVED COSTS

  COMPONENT                     UNAPPROVED COSTS                                AMOUNT
                                                                              REIMBURSED

                    Travel and equipment expenditures unrelated to the RA &
      EOUSA                                                                           $653
                                   FY 97 travel expenditures


                                     Late payment penalties                          18,410
                                   FY 97 travel expenditures                         17,226
       FBI             Costs not stipulated in the RA request and approval          230,692
                                   Travel unrelated to the RA                         3,590
                              Cash advances charged as expenses                      23,990
                   Reimbursement of equipment and operating expenses made
                                                                                     17,367
                          to the Georgia Department of Corrections


      SEPS                Equipment expenditures unrelated to the RA                  2,165


                    Travel and equipment expenditures unrelated to the RA &
      USMS                                                                           53,167
                                   FY 97 travel expenditures


     TOTAL                                                                         $367,260

  Source: JMD Budget Staff and OIG analysis




                                              38
       Many of the unapproved expenditures noted in the preceding table
were apparent on the itemized listings that we used to perform our testing.
For example, as discussed on page 14, the FBI received reimbursement for
late fees. In the detailed transaction listings we received, these charges
were in a category entitled “Late Payment Penalties.” If JMD had reviewed
the itemized expenses, these unallowable expenditures should have been
identified.

       In another example, the FBI received reimbursement for medical
expenses incurred in conjunction with its pursuit of Eric Rudolph by the
Southeast Bombings Task Force. However, this type of expenditure was
not included in the FBI’s initial funding request and, therefore, was not
approved by JMD, the Attorney General, OMB, and Congress. Since the
billing documentation submitted by the FBI consisted of a summary with
general categories, these expenditures were not as easily recognizable as
the late fees mentioned above. However, if JMD had requested and
reviewed the detailed listings, the unallowable costs could have been
identified.

       Lack of Supporting Documentation — When testing expenditures,
original supporting documents provide auditors with the highest level of
validity. In the prior audit, unsupported costs comprised 27 percent of our
total dollar-related deficiencies. In our current review, a significant portion
of our questioned costs was again unsupported. As a result of our
transaction testing detailed in Findings 1 and 2, we identified $1,110,606 in
unsupported expenditures for Department components and $328,735 for
non-DOJ recipients. These questioned costs represented 47 percent of our
total findings.

       Although the JMD Budget Staff requires that Fund recipients maintain
supporting documentation, it has not provided guidelines for the length of
time the records should be retained, and it has not significantly improved its
billing review process as a means of monitoring the components’ compliance
with the retention requirement. During our work at the various Department
components, we found differing standards for record retention. According to
JMD, the components are required to maintain records for six years and
three months from the last billing for each RA, as required in the National
Archives and Records Administration (NARA) General Records Schedule 6.1a.
However, the USMS has a 2 or 3-year retention policy, following NARA
Schedule 7.1 and 7.4a. The FBI was following NARA Schedule 6.1a for most
Fund expenditures; however, the FBI followed other internal guidelines for
payroll records, which include overtime payments.



                                       39
      We recommend that the JMD Budget Staff advise all Fund recipients of
a standardized period for retention of supporting documentation for all
expenditures, including those of pass-through recipients. In addition, JMD
should improve its process for reviewing component billings to ensure Fund
expenditures are adequately supported. For example, JMD should require
the components to have the supporting documents readily available for
review. Also, JMD should review the components’ quarterly billings and test
a sample of expenditures for the adequacy of supporting documentation.

       USMS — As noted in our prior audit report, we identified $436,510 in
questioned costs, or 24 percent of the expenditures reviewed, at the USMS.
In addition, we advised that the USMS needed to improve its fiscal controls
prior to JMD providing the agency with more funding. However, our current
audit revealed that the USMS had not improved its management of Fund
expenditures. We identified $1,284,453 in questioned costs, representing an
85 percent error rate. This indicates that significant weaknesses at the
USMS continue to exist. Although the USMS adequately tracked the
expenditures related to its most recent RA (i.e., the FY 2001 RA for the
World Trade Center and Pentagon bombings), we could not conclude that the
USMS improved its management of Fund monies because the RA was limited
to overtime expenses only. Before entering into another RA with the USMS,
JMD needs to ensure that the agency has established and implemented a
system to adequately track all types of Fund expenditures.

      Pass-through Funding — Our prior audit disclosed that Fund monies
passed through to non-DOJ users were at risk because they were not being
adequately managed or monitored. As a result, we identified $1,106,616 in
dollar-related findings, or 20 percent of the expenditures reviewed. Our
current audit disclosed $430,132 in questioned costs, or a 19 percent error
rate. As previously reported, pass-through agencies, such as the FBI, need
to improve their management of these funds by consistently using written
agreements that detail the scope of the reimbursement and the parties’
responsibilities. In addition, the pass-through agencies need to review and
maintain documentation to support the billed expenditures. In turn, JMD
needs to provide a framework for the pass-through process and clearly
delineate what is expected of both the end-users and the pass-through
agencies.

Conclusion

      As the Fund administrator, the JMD Budget Staff must ensure that
expenditures are reasonable, appropriate, adequately supported, and in
compliance with Fund legislation. Despite maintaining strong controls during
the initial review and RA approval processes, the JMD Budget Staff has not

                                    40
significantly improved its controls over Fund expenditures since the prior
audit. We identified over $4 million in dollar-related deficiencies during our
prior audit and over $3 million during our follow-up audit. The questioned
costs identified during our current review could have been alleviated had the
JMD Budget Staff strengthened its controls over the use of Fund monies as
recommended in the prior audit.

      Although JMD has continued to monitor the open RAs and inquire if the
remaining funds can be deobligated, JMD has not improved its review of
component billings. In response to two of the prior audit’s
recommendations, JMD stated that it would review component billings,
including supporting documentation, prior to processing the billings.
However, the unallowable and unsupported expenditures that we identified
indicate that JMD has not implemented an adequate review process. In
addition, the prior report stated that funds passed through to non-DOJ users
needed increased oversight; however, we found deficiencies in pass-through
funding that amounted to virtually the same error rate as noted in the
previous review.

      JMD needs to strengthen its controls over the administration of the
Fund, particularly during the review of billings and when funds are passed
through Department components to non-DOJ users. Further, JMD needs to
develop guidance that clearly instructs the components on how long they
must retain the supporting documents associated with their billings. If
controls are enhanced, additional resources should be available to react to
terrorist incidents if they occur. We recognize that there are a variety of
ways that improvements in JMD’s controls can be achieved. JMD may need
to involve the participating components in order to arrive at a solution that
works most efficiently. However, JMD is ultimately responsible for the
integrity of the Fund and must take action to improve controls over Fund
expenditures.

R ecommendations

      We recommend the Assistant Attorney General for Administration:

10.   Develop and implement a plan to increase the JMD Budget Staff’s
      oversight of the Department components’ management of Fund
      monies, including more detailed reviews of component billings and
      periodic monitoring of actual expenditures.

11.   Develop and issue guidance on the retention of records for Fund
      expenditures.


                                      41
12.   Review the USMS’s system for tracking Fund expenditures prior to
      providing the agency with any additional funding. In addition, the JMD
      Budget Staff should closely monitor any future payments to the USMS.

13.   Establish a process to use in the event that Fund monies are to be
      passed through to non-DOJ agencies. The process should provide
      guidance for the pass-through agencies, including mandating the use
      of written agreements, reviewing the actual expenditures of the end-
      users, and maintaining appropriate documentation.




                                    42
           STATEMENT ON MANAGEMENT CONTROLS

      In planning and performing our audit of the Fund, we considered JMD’s
and the Fund recipients’ control structure for the purpose of determining our
audit procedures. This evaluation was not made for the purpose of providing
assurance on each of their management control structures as a whole.
However, we noted certain matters involving management controls that we
considered to be reportable conditions under government auditing
standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operations of the management
control structure that, in our judgment, could adversely affect JMD’s ability
to effectively administer the Fund and the components’ abilities to manage
the funds received. We identified weaknesses in the following areas:

      •     JMD’s review of billings submitted by the Department
            components for reimbursement from the Fund;

      •     Department components’ internal procedures related to Fund
            expenditures included in the bills submitted to JMD;

      •     pass-through agencies’ monitoring of non-DOJ users’ Fund
            expenditures, including the adherence to written agreements;
            and

      •     standardized retention periods for Fund accounting records and
            receipts.

       Because we are not expressing an opinion on JMD’s or the Fund
recipients’ management control structures as a whole, this statement is
intended for the information and use of JMD in managing the Fund. This
restriction is not intended to limit the distribution of this report.




                                     43
                                                                           APPENDIX I

       AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      We have completed a follow-up audit of the Department
Counterterrorism Fund, which is administered by JMD. The objectives of the
audit were to determine: 1) if the Fund expenditures were authorized,
supported, and made in accordance with the intent of the law, and 2) if JMD
has taken appropriate efforts to close RAs in an expeditious manner.

Scope and Methodology

      We performed our audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, and
accordingly included such tests of the records and procedures that we
considered necessary. The audit covered the period between October 1,
1997, and September 10, 2002, and included funds provided to Department
components as well as to other federal, state, and local agencies.

     Department Components — The audit included a detailed review of
RAs between Department components and JMD for FYs 1998 through 2002,
amounting to $93,999,316.44 Audit work was performed at the following
agencies:

      •      Criminal Division
      •      Executive Office for United States Attorneys
      •      Federal Bureau of Investigation
      •      Security and Emergency Planning Staff
      •      United States Marshals Service

      At each component, we performed tests of selected records and
transactions and followed up with responsible personnel. Additionally, at
JMD, we interviewed personnel regarding its oversight of the Fund and we
reviewed the Fund legislation, the RAs, and billing documentation for our
review period.

      To determine if Fund expenditures were authorized, supported, and
made in accordance with the intent of the law, we judgmentally selected and
reviewed a sample of transactions. The transactions were selected from
detailed listings of expenditures obtained from each of the agencies. As of
the date of our fieldwork, the universe of expenditures amounted to

44
   As mentioned in the table and related footnotes on page 8, some RAs were excluded
from our review.

                                          44
$85,114,623. Generally, for each RA we reviewed 10 percent of the number
of transactions in the universe of disbursements with a maximum of 100
transactions; half of our sample was chosen by random selection, while the
other half consisted of high dollar transactions.45 In addition, we selected
transactions that were greater than or equal to $100. However, we had to
modify our sampling methodology for the Criminal Division, EOUSA, and the
FBI. Following are the modifications that were necessary for these
components:

      •      Criminal Division: We selected a sample consisting of 10 percent
             of the number of transactions in the universe; however, we
             modified the way in which the items were selected. Since the
             Criminal Division provided a listing that separated the
             transactions into expense categories and we wanted to ensure
             that each category was represented in our sample, we selected
             at least one transaction from each category. The expense
             categories were comprised of salaries and benefits, consulting
             services, equipment, and overhead expenses. In order to keep
             our total sample at 10 percent of the entire universe of
             transactions, we had to reduce our selection of items from the
             overhead expenses category below 10 percent and select one
             equipment category item.

      •      EOUSA: The listings for two of the three RAs had several salary-
             related transactions, which are recurring and primarily static
             payments. As a result, we limited the number of payroll
             transactions selected. In addition, one of the RAs had monthly
             payments for two separate contracts, which comprised most of
             the high-dollar items for sample selection. Therefore, we picked
             only two transactions related to each contract, eliminating the
             remaining contract transactions from the sample selection
             process because testing more of these recurring payments was
             unnecessary.

      •      FBI: For each RA, we received individual listings that separated
             the transactions into different expense categories. The expense
             categories consisted of personnel compensation (overtime); travel
             and transportation; rent, utilities, and communications; other
             services; supplies; and equipment. We judgmentally selected a
             total of 52 high-dollar transactions from the combined listings. In
             order to ensure that each category was represented in our testing,
             we also selected a random sample from each category of each RA.
45
   Our sampling methodology generally was the same as the methodology employed in our
prior audit.

                                         45
             We randomly selected 5 percent of transactions for each of the
             categories except travel and transportation, where we selected
             2 percent of the transactions. We selected 5 percent (2 percent in
             the case of travel) instead of 10 percent because: 1) the selection
             of a higher percentage of transactions would have resulted in a
             significant amount of items to test, which would have been
             burdensome for the FBI, 2) we had good coverage of the dollar
             amount reimbursed from just the 52 high-dollar items selected,
             which amounted to 42 percent of the total universe, and 3) in the
             case of travel, we had a low error rate in this particular category
             during the prior audit.

      For each transaction selected, we reviewed supporting documentation
such as requisitions, invoices, travel vouchers, vendor receipts, reimbursable
work authorizations, accounting and payment records, and purchase orders.
Our sample amounted to $36,007,218, or 42 percent of the universe.

           EXPENDITURE TESTING FOR DEPARTMENT COMPONENTS
                      UNIVERSE AND SAMPLE SIZE46

                   AGENCY            UNIVERSE         SAMPLE         PERCENT

            CRIMINAL DIVISION            $944,351        $196,141          21
            EOUSA                        3,079,971       1,043,611         34
            FBI                         77,290,951     32,607,795          42
            SEPS                         1,158,134        656,251          57
            USMS                         2,641,216       1,503,420         57

                   TOTALS             $85,114,623     $36,007,218          42
            Source: JUMD Budget Staff and OIG analysis

      In addition to the expenditure testing detailed above, we analyzed
$7,987,480 in FBI overtime costs related to the World Trade Center and
Pentagon attacks. These expenses are not included in the expenditure
testing of the Department components discussed above due to differences in
our methodology. While the expenditure testing included a detailed
examination of source documents to determine if the expenses were
authorized, supported, and used in accordance with the intent of the law,
our review of these FBI overtime costs did not. The FBI did not have a
tracking system from the onset that tagged overtime as being related to the

46
   The universe for each component does not necessarily correspond to either the RA or the
amount billed as of September 10, 2002. Instead, it reflects expenditures reported as of
the beginning of our fieldwork at each component.

                                           46
September 11 attacks. As a result, the FBI was unable to determine the
exact amount of overtime costs related to the bombings and instead
calculated an estimate using historical data. We reviewed the FBI’s
computation of overtime costs and found that the amount charged to the
Fund was reasonable.

      Non-DOJ Components — Our audit also included a detailed review of
funds provided to non-DOJ components related to RAs executed between
FYs 1998 through 2002, amounting to $3,966,550.47

       For the funds provided to the city of Ogden, Utah, we: 1) interviewed
responsible personnel about requests for reimbursement, Fund expenditures,
tracking systems, and billing practices; and 2) performed tests of selected
records and transactions. Further, we obtained necessary documents
(e.g., the grant agreement, billing documents, memoranda) from the JMD
Finance Staff.

      For the other non-DOJ components that were responsible for reporting
to the FBI, we attempted to perform tests of selected records and
transactions. However, as reported in Finding 2, the FBI did not always
obtain complete supporting documentation from the end-users and attempts
to obtain the information from the end-users were ineffective.

      To determine if the Fund expenditures of the non-DOJ agencies were
authorized, supported, and used in accordance with the intent of the law, we
judgmentally selected and reviewed a sample of transactions. The
transactions were selected from the available detailed listings of
expenditures. As of the date of our fieldwork, the universe of expenditures
amounted to $2,832,946. Generally, we utilized the same sampling
methodology as we did for the Department components, which amounted to
10 percent of the number of transactions in the universe. However, we
could not select any transactions from the Denver Police Department
because that agency was unresponsive to the FBI’s request for information.
Further, we had to modify our sampling methodology for the city of Ogden
and the USDA Forest Service, as follows:

      •      City of Ogden: The city of Ogden had the original supporting
             documentation for the transactions that were reimbursed from
             the Fund stored at another location. However, it had
             photocopies of the original documents on hand for our review.
             Since there were only fifty items and the data was readily
47
   The non-DOJ components that were included in our review were the city of Ogden, Utah;
the Denver, Colorado Police Department; the Georgia Department of Corrections; and the
USDA Forest Service.

                                          47
              available, we reviewed 100 percent of the transactions using the
              photocopies. In order to perform a comparison of the
              photocopied support to the original documents, we requested
              original documents for 20 percent of the fifty transactions. For
              the 20 percent selected, half were chosen by random selection,
              while the other half consisted of high dollar transactions. We
              also selected two additional items to ensure that at least one
              transaction was chosen from each expense category. We found
              no differences between the photocopied support and the original
              documentation. Thus, we relied on the photocopies for the
              remaining items reviewed.

      •       USDA Forest Service: Since the listing separated the
              transactions into expense categories, we selected 10 percent of
              the transactions from each category, choosing the high dollar
              items from each. We also made sure to select at least one
              transaction from each category.

     Our sample of pass-through funding amounted to $2,324,541, or
82 percent of the universe.

              EXPENDITURE TESTING FOR NON-DOJ COMPONENTS
                       UNIVERSE AND SAMPLE SIZE48
               AGENCY                  UNIVERSE           SAMPLE         PERCENT

     City of Ogden, Utah                    $2,082,331      $2,082,331           100
     Denver Police Department                   108,290        108,290           100
     Georgia Bureau of Corrections              525,772         17,367             3
     USDA Forest Service                        116,553        116,553           100

               TOTALS                       $2,832,946      $2,324,541            82
     Source: FBI Budget Execution Unit, JMD Budget Staff, and OIG analysis

      For each transaction selected, we attempted to review supporting
documentation such as requisitions, invoices, vendor receipts, reimbursable
work authorizations, accounting and payment records, and purchase orders.
For the instances in which neither the pass-through agency nor the end-user
could provide the necessary transaction listings or detailed support we
requested, our sample size reflected 100 percent of the universe because we
questioned the entire amount reimbursed as unsupported.

48
   The universe for each end-user does not necessarily correspond to either the agreement
amount or the amount billed as of September 10, 2002. Instead, it reflects expenditures
reported as of the beginning of our fieldwork related to each agreement.

                                           48
      In the aggregate, we reviewed expenditures totaling $46,319,239 and
consisting of: 1) $36,007,218 in Department component expenditures;
2) $7,987,480 in FBI overtime costs related to the World Trade Center and
Pentagon attacks; and 3) $2,324,541 in funds provided to non-DOJ
components.




                                   49
                                                                           APPENDIX II
            SCHEDULE OF DOLLAR-RELATED FINDINGS


                                                             AMOUNT           PAGE


 QUESTIONED COSTS

 Department Components:
        Unsupported expenditures                             $1,110,606         11
        Unallowable expenditures                              1,530,533         11


 Non-DOJ Components:
        Unsupported expenditures                                328,735         29
        Unallowable expenditures                                101,397         29
             Total Questioned Costs                        $3,071,271




Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

Funds to Better Use are future funds that could be used more efficiently if management
took actions to implement and complete audit recommendations.



                                           50
                               APPENDIX III
SAMPLE OF REIMBURSEMENT AGREEMENT




               51
                                      APPENDIX IV


JUSTICE MANAGEMENT DIVISION’S RESPONSE TO THE
               DRAFT REPORT




                     52
     APPENDIX IV




53
     APPENDIX IV




54
     APPENDIX IV




55
     APPENDIX IV




56
                                                                 APPENDIX V
     OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                     CLOSE THE REPORT

Recommendation Number:

1.     Resolved. JMD accepted our recommendation and agreed to work
       with EOUSA to remedy the issues. This recommendation can be closed
       when we receive evidence that the $17,491 in questioned costs
       attributable to EOUSA has been remedied appropriately.

2.     Resolved. According to JMD, the FBI returned $454,638 to the Fund
       and provided additional documentation for the remaining items
       questioned. JMD plans to work with the FBI to resolve these items.
       To close this recommendation, please provide us with evidence that
       the $454,638 was returned and the remaining $865,053 has been
       remedied appropriately.

3.     Resolved. JMD responded that the USMS returned $225,000 to the
       Fund. JMD and the USMS will work together to address the remaining
       questioned costs. This recommendation can be closed when we
       receive evidence that the $225,000 was returned and the remaining
       $1,059,453 has been remedied in an appropriate manner.

4.     Resolved. JMD agreed to deobligate the $19,504 in Fund monies that
       SEPS returned. Please provide documentation to support the
       deobligation.

5.     Resolved. In its response, JMD stated that the reimbursement
       agreements will be revised to incorporate information from the
       decision making process, including those requests that were
       authorized and those that were not. JMD also stated that it will work
       with the FBI and the USMS to ensure that future requests are
       appropriate. To close this recommendation, please provide us with a
       sample RA that has been revised appropriately. Further, please
       provide us with the results of your work with the FBI and USMS
       regarding their requests for reimbursement from the Fund.

6.     Resolved. JMD accepted our recommendation and agreed to remedy
       the issues identified. In order to close this recommendation, please
       provide us with documentation to support that the $187,922 in
       questioned costs attributable to the city of Ogden, Utah, have been
       remedied appropriately.

                                      57
                                                                 APPENDIX V


7.    Resolved. In its response, JMD stated that it will work with the FBI to
      remedy the $108,290 in questioned costs attributable to the Denver
      Police Department. This recommendation can be closed when we
      receive evidence that these questioned costs have been remedied in
      an appropriate manner.

8.    Resolved. According to JMD, it will work with the FBI to remedy the
      $17,376 in questioned costs attributable to the Georgia Bureau of
      Corrections. This recommendation can be closed when we receive
      evidence that these questioned costs have been remedied in an
      appropriate manner.

9.    Resolved. JMD accepted our recommendation and agreed to work
      with the FBI to remedy the $116,553 in questioned costs attributable
      to the USDA Forest Service. To close this recommendation, please
      provide evidence that these questioned costs have been remedied
      appropriately.

10.   Resolved. In its response, JMD stated that it will increase oversight
      of the Fund by continuing to emphasize the accountability of the
      receiving components. Further, JMD noted that more detailed reviews
      of component billings and periodic monitoring of actual expenditures
      will be considered. As this follow-up audit revealed over $3.1 million
      in questioned costs, we believe that JMD should establish a system of
      monitoring Fund expenditures that goes beyond the steps that have
      been taken previously. In order to close this recommendation, please
      provide us with additional information about how you plan to increase
      your oversight of the Fund.

11.   Resolved. JMD agreed to issue guidance regarding the retention of
      records related to Fund expenditures. This recommendation can be
      closed when we receive the standards and evidence that they have
      been disseminated to all Fund users.

12.   Resolved. In its response, JMD stated that the USMS has an
      improved financial system and, like the USMS, pointed to the USMS’s
      FY 2001 activities as evidence of the improvement. However, as noted
      in the report, the FY 2001 agreement was not comprehensive. The
      only reimbursement the agency received was for overtime; other
      expenditure categories recorded in other systems were not included.
      JMD agreed to work with the USMS to ensure that future payments
      meet financial requirements. In order to close this recommendation,
      please provide us with evidence that you have reviewed the USMS’s

                                     58
                                                                APPENDIX V
      system for tracking Fund expenditures and that the USMS has
      adequately tracked more recent Fund expenditures not related to
      payroll.

13.   Resolved. JMD agreed that monitoring non-DOJ users of Fund
      monies is important and stated that a process for pass-through funds,
      including the responsibilities of the pass-through components, will be
      established. This recommendation can be closed when we receive the
      written guidance that has been established and evidence that it has
      been provided to all pass-through components.




                                     59
